<html>
<title> - ELECTION REFORM: H.R. 811</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       ELECTION REFORM: H.R. 811

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             MEETING HELD IN WASHINGTON, DC, MARCH 23, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
36-023                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

           JUANITA MILLENDER-McDONALD, California, Chairwoman
ROBERT A. BRADY, Pennsylvania        VERNON J. EHLERS, Michigan,
ZOE LOFGREN, California                Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
                                 ------                                

                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
JUANITA MILLENDER-McDONALD,          KEVIN McCARTHY, California
    California                       VERNON J. EHLERS, Michigan
CHARLES A. GONZALEZ, Texas
SUSAN A. DAVIS, California


                       ELECTION REFORM: H.R. 811

                              ----------                              


                         FRIDAY, MARCH 23, 2007

                  House of Representatives,
                          Subcommittee on Elections
                          Committee on House Administration
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:45 a.m., in 
room 1310, Longworth House Office Building, Hon. Zoe Lofgren 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Lofgren, Millender-McDonald, 
Gonzalez, Davis of California, McCarthy, Ehlers.
    Staff Present: Tom Hicks, Election Counsel; Janelle Hu, 
Professional Staff Member; Matt Pinkus, Professional Staff/
Parliamentarian; Kristin McCowan, Chief Legislative Clerk; 
Gineen Beach, Minority Counsel; and Peter Sloan, Minority 
Professional Staff.
    Ms. Lofgren. Good morning. The subcommittee will come to 
order. I would like to ask everyone in the room to please turn 
off your cell phones, if you have not done so yet.
    Today, we are going to discuss H.R. 811, Voter Confidence 
and Increased Accessibility Act of 2007, which would amend the 
HAVA Act of 2002 with respect to ballot verification and 
mandatory paper record audit capacity, and accessibility and 
ballot verification of results for individuals with 
disabilities. Mr. Holt's legislation also aims at increasing 
the security of voting of systems through prohibiting the use 
of undisclosed software and also banning any conflicts of 
interest between voting machine vendors and test labs. We know 
that our election process must be open and transparent, and we 
know that we need standards to modernize our voting system and 
to bring accountability into the system throughout America.
    Election reform is not a partisan issue. This is something 
we can all agree on, and this bill has bipartisan support. For 
this reason, I am delighted that Governor Crist of Florida has 
accepted our invitation to testify to the progress that he is 
making in his State.
    This hearing on the Voter Confidence and Increased 
Accessibility Act is just one step in the process for making 
elections--a fundamental tenet of our democracy--open, fair, 
accountable and correct.
    So I will now recognize the ranking member for any opening 
statement he may have.
    Mr. McCarthy. Well, I thank the chairwoman for calling this 
hearing on an opportunity to examine H.R. 811. I am excited 
about hearing from the individuals today.
    During the last election, we had more than 435 results 
certified by respective States, and we have quite a few State 
representatives here that were certified as well. So I look 
forward to the discussion.
    Ms. Lofgren. Thank you very much.
    All the members are invited to submit their statements for 
the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.001
    
    Ms. Lofgren. As Governor Crist has another obligation, we 
are going to ask him to testify first and take questions only 
from myself and the ranking member.
    Governor Crist is here to speak about what he is doing in 
his State, where there were several contested elections in 
Florida. But he is not here about that. He is here about the 
future, and that is all that we are here to examine today.
    So we are just so honored that you are here, and we are 
honored that our colleagues, Mr. Lincoln Diaz-Balart and Bob 
Wexler, are going to do the honors of introducing you.
    Mr. Wexler, shall we begin with your introduction?
    Mr. Wexler. Thank you very much, Madam Chair; and thank you 
for giving Congressman Diaz-Balart and I the honor of 
presenting and introducing to you and the committee our 
Governor in Florida.
    Governor Crist has served 3 months as Governor, and in that 
period of time he has reformed the way in which government does 
business in Florida. Governor Crist is a Republican, but 
Democrats, Independents and Republicans alike in Florida are 
very proud of the very inclusive fashion in which he has 
governed thus far.
    There is no better example of his inclusiveness than the 
election proposal that he put forth to the Florida Legislature 
in his budget, which I dare say has resolved a very divisive 
issue in Florida that has persisted for the last 6 years. In 
essence, what Governor Crist has done, he has proposed 
replacing electronic machines, which do not have any paper 
trail, which do not have a backup system, with an optical scan 
system that will be used in each of Florida's counties, both on 
election day and in early voting. In the process, I believe he 
has created what I hope will be a model for the Nation in 
ensuring that everyone's vote is cast and counted in the manner 
in which they choose.
    And it is with great pleasure that I ask my dear friend, 
Congressman Diaz-Balart, to continue.
    Mr. Diaz-Balart. Well, thank you. Thank you so much, 
Congressman Wexler.
    It is a privilege for me to join my good friend Robert 
Wexler, Madam Chairman, distinguished ranking member and 
members of the subcommittee, in welcoming our Governor here to 
the Capitol.
    Charlie Crist is a close personal friend of my brother's 
and of mine and indeed of my family's, and we have long been 
proud of him. As Congressman Wexler has made reference to, in 
the short time that he has been Governor, the people of Florida 
have been able to see what extraordinary judgment guides his 
actions day in and day out and his exceptional fairness. He is 
a man who everyone can know, and, as I say, the people of 
Florida are realizing, makes his decisions in an ultimately 
fair way. So as we have seen him in the short period of time 
that he has been Governor already tackling issues, dealing with 
issues that the people of Florida want to be dealt with. 
Obviously, we are even more proud of him.
    So it is a great privilege, and I thank you, Madam 
Chairwoman, for allowing Congressman Wexler and I to introduce 
our Governor to you because of the esteem, the respect and, 
indeed, the admiration that we have for Governor Crist. So 
thank you and all of you members for this great privilege.
    Ms. Lofgren. Well, thanks to both of you.
    Governor Crist, I can't think of another time when I have 
heard such passionate praise on a bipartisan basis for a 
Governor. So I look forward, and we all do, for hearing your 
testimony at this point. Thank you very much.

      STATEMENT OF HON. CHARLIE CRIST, GOVERNOR OF FLORIDA

    Governor Crist. Thank you, Madam Chair. I appreciate the 
opportunity to be here, and I first want to thank you for your 
graciousness in allowing me to--and to all the members of the 
committee, I appreciate the chance to be here.
    And I want to thank my friends, and we are great friends. I 
have known Lincoln and Robert, the Members of the Congress, for 
many years. The words you just heard are incredibly kind and 
almost embarrassing, but I am very grateful for their 
friendship and for their leadership.
    On behalf of the people of Florida, they have been 
tremendous public servants, and we have a very proud 
delegation. I am very proud of all of our members of our 
delegation. Lincoln Diaz-Balart, along with Alcee Hastings, 
Chair it; and they do an extraordinary job for the people of 
our State. And I am just proud to be able to be here.
    Congressman Wexler, as you know, has been a passionate 
advocate on behalf of improving our voting system; and his 
passion is evident this morning again, as is Lincoln's, as it 
relates to voting and the importance of supporting our 
democracy.
    I also would like to recognize our Florida Secretary of 
State, Kurt Browning. He is here with us today as well, and he 
is doing a great job.
    I had the opportunity last evening to experience some of 
our national monuments. Standing at the feet of Lincoln and 
Jefferson, one can't help but be inspired by their words and 
their dedication to freedom. I was struck by Jefferson's words 
in which he said, and I will quote, ``Laws and institutions 
must go hand in hand with the progress of the human mind. As 
that becomes more developed, more enlightened, as new 
discoveries are made, new truths are discovered and manners and 
opinions change. With the change of circumstances, institutions 
must advance also to keep pace with the times.''
    I want to speak to you this morning about the important 
issue of a paper trail and share with you the improvements that 
we have proposed in the State of Florida to our election 
process.
    As we all know, Florida has garnered much attention in past 
elections. However, I am pleased to report that our State has 
entered a new era. With the bipartisan efforts of the Florida 
State Legislature and our administration, we have moved beyond 
finger pointing and laying blame. Together, we have tackled the 
challenges facing our elections process and have made great 
progress towards implementing, I believe, a system that will 
allow every eligible voter to have their voice heard and ensure 
that their vote counts.
    I would like to share with you the proposal that I am 
presenting to our legislature during the current session in 
Florida. I would like to emphasize that every aspect of this 
proposal is aimed at a commitment to ensuring that every 
Floridian's vote will be counted and verifiable. This proposal 
will move Florida toward a comprehensive, streamlined election 
system that does use a paper ballot in every voting precinct in 
time for the primary election in the fall of 2008.
    Our proposal has three major components to it. First, we 
will replace all touch screen voting machines in polling places 
with optical scanners. Optical scan voting machines have a 
proven track record for accuracy and provide the paper trail 
that can be used for any recount if necessary.
    As you know, this system allows for the voter to use a 
pencil to fill in a designated space on a paper ballot for each 
race. The voter would then insert the completed ballot into an 
optical scanning machine which then records the vote on paper 
that can be used for verification purposes.
    Second, we will provide a system known as a ballot on 
demand that will produce an optical scan ballot for all early 
voting sites. Ballot on demand is a ballot production system 
that can be utilized by absentee as well as early voters. 
Ballot on demand allows for individual optical scan ballots to 
be printed when the voter arrives for the early voting, thus 
eliminating the need for touch screens with voter-verifiable 
paper trails to be used at early voting sites. The benefits of 
the ballot on demand system from an election management 
standpoint are numerous.
    In conclusion, Florida has worked in a bipartisan manner, 
actually, a nonpartisan manner, to effectively improve our 
election process. Our goal is to resolve voter confidence 
through new systems and restore voter confidence, procedures 
and implementation of both Federal and State legislation. We 
are pleased with the progress we have made in our State and 
continually look to enhance our elections system and streamline 
the voting process for millions of Floridians. When one of our 
citizens casts a ballot in an election at any level, be it 
local, State or Federal, they can leave the polling place with 
the confidence that their vote has been counted, recorded and 
can also be verified if necessary.
    As the grandson of an immigrant who came to this country 
when he was only 14 years old, I have a deep and abiding 
admiration and love for this Nation, as do you. The United 
States offers its citizens exceptional power through our 
democratic process. That democracy must be preserved and 
protected.
    I know your respect for our system of government is why 
each of you serve in this august body with great honor. We must 
work together to continue to ensure the integrity of that 
process. Our electoral process is the foundation of our 
democracy.
    As my friend Lincoln Diaz-Balart knows well, people just 90 
miles south of Florida shores are unable to freely exercise 
that right to vote. Every 2 years, millions of Americans 
express their opinion without fear of consequence. Sadly, 
people around the world yearn for this freedom and don't yet 
have it.
    We must work diligently to ensure our citizens' votes are 
validated and they are valued. The right to vote is the most 
fundamental of all American rights. There is no greater 
testament to our democracy than the ability of the people to 
choose their leaders.
    Thank you, Madam Chair.
    Ms. Lofgren. Thank you, Governor, for an impressive 
statement.
    [The statement of Governor Crist follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.092
    
    [GRAPHIC] [TIFF OMITTED] T6023A.093
    
    [GRAPHIC] [TIFF OMITTED] T6023A.094
    
    [GRAPHIC] [TIFF OMITTED] T6023A.095
    
    Ms. Lofgren. By unanimous consent, we will limit the 
questions to myself and the ranking member, because the 
governor's legislature is in session, and he needs to fly back 
there.
    I will just ask two quick questions. First, as we are 
looking at amendments to HAVA, concerns have been expressed by 
some elections officials as to the timing and whether changes 
can be made in time for the next election in 2008. So I am 
interested in how Florida is dealing with that.
    And the second question is, it is important to all of us 
and I know, sir, to you, that those who have disabilities have 
an opportunity to cast their vote freely and privately. And how 
are you addressing that?
    Governor Crist. Thank you very much for the opportunity.
    The timing issue first. As I indicated, we believe that if 
the legislature grants our wish and gives us the appropriate 
funding to be able to pay for these machines, that again, by 
the primary of 2008, they would be in place.
    Your other issue is extremely important to us as well. To 
make sure that the disabled have the opportunity to vote and 
that every one of their votes would count, we would employ 
touch screens with a printed ballot that would be produced next 
to it so that the opportunity and the ease of voting is 
accommodated there as well.
    Ms. Lofgren. Mr. McCarthy.
    Mr. McCarthy. I thank the Governor.
    I was reading the statement that you submitted. It was 
different than what you read.
    I want to congratulate Florida on the improvements they 
have made. You were saying, dropping down on the Presidential 
from 2000, the undervotes down to .4 percent. Tremendous 
improvement. I thank you for that.
    I come from a large State, California. We are moving our 
primary up. Are you moving your primary up?
    Governor Crist. We may be. And it is a very timely 
question. In fact, yesterday in our House of Representatives 
they passed an opportunity to move it up to either January 29 
or maybe even February 5. It is uncertain in its language at 
this point.
    Our State Senate, with a friend of the Congresswoman's, a 
new Senator, Jeremy Ring, has filed a bill that would address 
the same issue and also have the opportunity to move it up. But 
it is unclear at this point, but it may be moving in that 
direction.
    Mr. McCarthy. The other thing, knowing we are both from 
large States and we go out to make purchases, I just worry 
about the timeline. Is Florida willing to pay for all of your 
new optical machines if that is where you end up going? And by 
the purchase agreement, going out to bid and you move the 
primary up, will you have the time and the training to be able 
to do that?
    Governor Crist. We believe that we will. That is a very 
important issue to us. We are willing to pay for it. As the 
Congressman mentioned, we have recommended it in our budget 
from the Governor's Office to the legislature. We are pretty 
confident that they are going to honor their request.
    It is important to both our States. I have a sister who 
lives in the golden State, Laguna Beach. But I think it is very 
important that we have the appropriate funding, that we make 
sure the citizens can have faith in their voting system and 
that the election of the next President is one that is carried 
out with integrity and honor so that our country continues to 
move forward.
    Mr. McCarthy. I thank you for your time.
    Ms. Lofgren. With that, let me note that other members may 
submit questions to Governor Crist, and he has graciously 
offered to provide a written response.
    Governor, we were so delighted and pleased that you were 
able to join us here today. Thank you so very much for making 
the effort to share your experience.
    Governor Crist. Thank you, ma'am, very much for having me.
    Ms. Lofgren. Well, we now have our two colleagues, 
Congressman Rush Holt and Congressman Tom Petri, who are 
sponsors of the bill that is the subject of this hearing.
    We know them as well as friends and colleagues, but, for 
those in the audience, Congressman Holt is a Member of Congress 
from New Jersey. He has held positions as a teacher, 
congressional science fellow and arms control expert at the 
U.S. State Department; and he was the Assistant Director of the 
Princeton Plasma Physics Laboratory prior to his election to 
the Congress.
    Tom Petri represents Wisconsin's Sixth Congressional 
District and is serving his 15th term in the House of 
Representatives. He is the ranking member on the Aviation 
Subcommittee of the House Transportation and Infrastructure 
Committee; and he is a former chairman of the House British 
American Parliamentary Group, an official organization formed 
to strengthen relations with the British Parliament and known 
as a foe of government waste.
    We are happy to have you both here and to present on the 
bill that is the subject of this conference.
    Mr. Holt, if you would begin.

 STATEMENT OF HON. RUSH D. HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Madam Chair.
    I am delighted to be here with Mr. Petri, not only one of 
the couple hundred co-sponsors but one of the leading co-
sponsors of H.R. 811.
    Mr. McCarthy, Mr. Ehlers, Mr. Gonzalez, Mrs. Davis, I am 
sure you will agree with me that a self-governing country works 
only if we believe it does. The faith in the process of 
democracy has been shaken, and I think we have to take 
immediate steps to restore that trust. Anything of value should 
be auditable, and it is central to this legislation that each 
voter's vote will be verifiable and the results of every 
election will be publicly auditable.
    As it is with nearly 40 percent of the voters around the 
country now, they are being asked to vote in ways that cannot 
be verified. In fact, a voter can leave the polling booth 
scratching her head or his head and wondering if the vote was 
recorded the way they intended. In fact, without a voter-
verified paper ballot, no election official, no computer 
scientist, no vendor will be able to reconstruct what the voter 
intended. Only the voter can verify what she or he intended, 
and that is at the heart of this legislation.
    The legislation would require a voter-verified, durable 
paper ballot for every vote cast that would serve as the record 
for all recounts and audits. It would preserve and enhance the 
accessibility requirements of the Help America Vote Act and 
fund the development of new accessible ballot marking and 
ballot reading technologies.
    It would require random audits--and this is key--in every 
Federal election; and it would require that voters be given 
emergency paper ballots, emergency ballots immediately upon 
machine failure to prevent any disenfranchisement, as we saw, 
for example, this past year in Maryland. It would ban wireless 
devices, undisclosed software and Internet connections in order 
to make certain that the devices that are used are independent 
and unmodified.
    It is worth pointing out that a number of States, more than 
two dozen, have paper ballot-based voting now. Many of these 
requirements have recently been enacted.
    I think our legislation, which has been prepared with 
meticulous care and reviewed by many individuals and 
organizations, is somewhat better than many of those States. It 
is worth pointing out, for example, though 27 States have some 
sort of paper ballot-based voting, only 13 States conduct 
random audits.
    This would require, as I say, random audits in every 
election. We have seen too many elections in recent years where 
the winner was lack of evidence and the loser was the intent of 
the voters. This I think will correct that.
    I know there is some question about our ability to 
accomplish this in time. I am pleased that Governor Crist was 
able to speak this morning, because that gives an example that 
it is possible. As I understand what he plans to do, it would 
comply fully with this legislation, and they intend to have 
that in place before their primary in 2008.
    Certainly if we were able to spend billions of dollars and 
mount a national effort to comply with the Y2K imagined or 
maybe imaginary threat, we certainly should be able to mount 
this same kind of effort to deal with something that is central 
to the functioning of our democratic government.
    Ms. Lofgren. Thank you very much, Congressman Holt.
    [The statement of Mr. Holt follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.002
    
    [GRAPHIC] [TIFF OMITTED] T6023A.003
    
    [GRAPHIC] [TIFF OMITTED] T6023A.004
    
    [GRAPHIC] [TIFF OMITTED] T6023A.005
    
STATEMENT OF HON. THOMAS E. PETRI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Petri. Well, thank you very much for having this 
hearing, and I have a statement that I appreciate you making--
--
    Ms. Lofgren. We will make it part of the record.
    Mr. Petri. I will just summarize by saying the key 
responsibility we have is to do everything we can to assure 
public confidence in the integrity of the election process. 
That is, in my mind, accomplished by having a paper trail that 
can be checked; and if there is a recount, that people have 
confidence that they are getting an accurate count as a result 
of the recount.
    There are always going to be some gray areas and questions 
in any system. We are in the business. We have all been through 
or have known colleagues who have been through recounts, but it 
is very important to have that opportunity.
    People can challenge votes. They can look at it. They can 
look at each one and actually assure themselves that, as best 
can be determined, the voters' intention is being carried out. 
Some of these electronic systems don't provide that, and it 
seems to me that undermine confidence, and we all know the kind 
of conspiracy feelings that people have as a result.
    So I have confidence that this committee, with your 
expertise, will sift through the various ideas. Look at what 
Florida is doing and what many States have already done to 
assure their voters they do have a verifiable paper trail and 
get Federal law in line with that objective.
    Thank you very much.
    [The statement of Mr. Petri follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.006
    
    [GRAPHIC] [TIFF OMITTED] T6023A.007
    
    Ms. Lofgren. Thank you both very much. We know that this is 
a busy day for all of us, and we appreciate your taking the 
time to appear here and to be willing to answer some questions 
if we have some.
    In your written statement, Congressman Petri, you talk 
about some technical issues in the bill. Do you feel that we 
can deal with those technical issues as part of the hearing 
process and the amendment process?
    Mr. Petri. I think so. And I also think you have to be 
careful that--you have different vendors who are, obviously, 
looking for a little bit of an opportunity to have an edge when 
it comes to buying their equipment, and it seems to me the 
objective of the legislation should be not to favor one vendor 
over another but to make sure that there are standards that 
ensure an independently verifiable paper trail.
    There are some issues about whether you would permit, for 
example, kind of like a credit card receipt and then the voter 
is supposed to look at it and say, yeah, that is the way I 
voted. I am not sure that really meets the standard of 
separate, after the fact, independent audit. I would prefer 
that people could look at what the voter actually did and check 
it out in a recount.
    So there are issues like that that you need to look at very 
carefully, but it shouldn't be that complicated. Many States I 
think have got it right. The systems are in place where you 
cross--draw--as Governor Crist said, you draw a line through an 
arrow behind the name of the candidate you favor. The machine 
scans it and you see it drop into a bin. Those are there. They 
can be recounted or reprocessed and checked. It is a pretty 
confidence-inspiring system, I think.
    Ms. Lofgren. Mr. Holt, I know that both of you actually are 
very concerned, as are we, that disabled voters be able to have 
full access to the democratic process by casting a private 
vote, and you are aware that some concern has been expressed in 
some sectors relative to the paper trail and the ability of the 
visually impaired to certify that. What is your answer to that? 
How do we make sure that all Americans, including the disabled, 
are accommodated?
    Mr. Holt. Well, not only is increased accessibility 
explicitly dealt with in the legislation, it is really central 
to the conception of the legislation, that it is intended to 
build on the Help America Vote Act and enhance the 
accessibility.
    I know there are some in the country--now you see it on the 
blogs--that are asking that we do away with all electronics and 
have paper ballots only. When confronted, they say, well, that 
is not quite what they mean, but it is, in fact, what they say. 
That would be a step backward, I think, as far as accessibility 
goes.
    Voters with physical limitations don't want a separate but 
equal system of voting. They want to be able to vote in secret, 
independently, just as every other citizen does; and this 
legislation I think certainly allows that.
    We have been careful not to get into the certification 
business, not pick and choose certain kinds of systems that 
should be used. Rather, we have chosen to establish principles 
that must be observed with a full recognition that there are 
systems available that meet those principles; and the 
principles are accessibility, auditability and voter 
verifiability.
    Ms. Lofgren. Thank you very much. My time has expired.
    Mr. McCarthy.
    Mr. McCarthy. Well, I thank both of you for coming.
    My first question is to Congressman Holt. Your bill talks 
about open source software. A lot of these machines run on also 
a Microsoft-based--and they have the intellectual property and 
protection and others, and they have to update regularly as 
they go through. How do you proceed to solve that problem? Or 
would you just keep it all publicly displayed or ask for that?
    Mr. Holt. The legislation as written was reviewed by a 
number of computer scientists and endorsed by them and by 
groups and organizations as well. I am certainly aware of that 
problem.
    Someone once said to me, why can't the software be publicly 
disclosed? It only counts. What is the proprietary secret that 
must be protected?
    Chairwoman Lofgren made reference to the legislative 
process that you are going through now. I am certainly willing 
to talk with you, and I am sure the computer scientists around 
the country who have shown such interest in this matter of 
verifiable voting would be willing to talk with you, to get the 
precise language that will give all voters the confidence that 
comes from transparency and, at the same time, protect 
legitimate trade secrets.
    Mr. McCarthy. Thank you.
    We have had quite a few hearings setting up to this one 
today, and you were able to participate in one we had the other 
day. The thing that struck me was the number of elected 
officials that run elections from the county to the Secretary 
of State that seem opposed to this bill and--I mean, we had the 
Executive Director of the National Association of Election 
Officials. I was just wondering if you could talk to that, 
explain to me why the majority of them would oppose your bill.
    Mr. Holt. I don't know to whom you are referring. I haven't 
taken a tally. But it was my sense that a large number of 
elected officials, the majority of elected officials, support 
this.
    I do, for example, have here the written testimony that was 
submitted to you from the Secretary of State of Minnesota, 
speaking in favor of this legislation and also making the point 
that it could be implemented within the time prescribed.
    I think some election officials have kind of the usual 
personal reluctance to have anybody tell them what to do. You 
know, several of them have said to me, what is the matter? 
Don't you trust us?
    You know, it seems to me that is like a CEO saying, well, I 
am not going to have the books audited because what is wrong? 
Don't you trust me?
    You want independent auditing in any case for anything of 
value.
    Mr. McCarthy. Can I ask you one question?
    Mr. Holt. Yes, sir.
    Mr. McCarthy. Do you have this letter that I got from NCSL 
and NACo, National Association of Counties opposing your bill?
    I mean, I don't assume that--and I come from the State 
legislature. I find elected officials, whether Republican or 
Democrat, want to have accountability and want to have honest 
elections.
    Then I guess if I could just follow up on another question 
with you. I appreciate your passion on this bill, and I 
appreciate your desire to make sure we have accurate elections. 
An interesting thing happened in one of the panels. A person 
said that their organization goes through all phases. And I 
agree with you. I want to make sure at the end of the day we 
have the most honest elections we can. And a unifying thing 
that most everybody says, the more people handle ``paper'', the 
more options you have to have problems.
    But, okay, we count at the end of the day auditing that 
those who voted make sure their votes counted. In your bill, 
you never addressed or would you address the people who vote--
are we allowing people to vote who don't have a right to vote? 
Would that not be overall accountability when a person says 
"all phases" and did you think of that or would you bring that 
into your bill?
    Mr. Holt. There are, I think, a number of aspects of 
elections and voting in the United States that still need 
attention, that has to do with everything from the registration 
lists to whether felons or former felons should be allowed to 
vote to how provisional ballots are counted and what happens if 
you intentionally deceive voters.
    There are a number of things that are not dealt with in 
this legislation, including conflicts of interest, except in a 
limited way with regard to system vendors and so forth. There 
is a little language about conflict of interest, but I think 
many of those things are better dealt with in other pieces of 
legislation.
    Mr. McCarthy. Thank you for your time.
    Ms. Lofgren. I would note for the record that the testimony 
of the Secretary of State of Minnesota, Mr. Mark Ritchie, will 
be included in the record.
    [The statement of Mr. Ritchie follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.096
    
    [GRAPHIC] [TIFF OMITTED] T6023A.097
    
    [GRAPHIC] [TIFF OMITTED] T6023A.098
    
    [GRAPHIC] [TIFF OMITTED] T6023A.099
    
    Ms. Lofgren. Now I invite Congressman Gonzalez to----
    Mr. Gonzalez. Thank you very much, Madam Chair.
    If I am not here throughout the proceedings, it is because 
we have a mark-up in Energy, and I will be going back and 
forth.
    My second observation is that I don't think the sky is 
falling, but I think parts of the ceiling may be falling. So if 
I rush out of the way----
    Rush, thank you very much. Tom, thank you very much for 
your testimony today. You have been here for the testimony for 
other election officials, and it seems to me--and we have the 
Governor today, of course, with his proposed legislation in 
Florida. If you had your druthers, would you prefer to go the 
route that Governor Crist is proposing in Florida, as opposed 
to your bill? Because we deal with legislative realities. I 
understand that. But I am just talking about if you had 
choices, because I am going to ask the same question of Tom in 
a minute.
    Mr. Holt. I have only had a second-hand account of what 
precisely the Governor is going to do. It sounds to me as if it 
would be fully in compliance with this legislation.
    As I said, in drawing the legislation, we recognized that 
running elections has been, under the Constitution, the purview 
of the States and that there are many, many systems already in 
use. We chose not to specify election systems here. We didn't 
want to get into the certifying business of--that this system 
is good for physical accessibility for people with physical 
disabilities, this system is not, and so forth. So not knowing 
enough about the Florida system and in keeping with my general 
principle of this bill, I think I really can't answer that.
    Mr. Gonzalez. Tom, same question.
    Mr. Petri. Yeah. I think there is a danger of trying to 
overload what should be a pretty simple bill that has at its 
heart ensuring basically a paper trail so there can be an 
accurate recount. And issues of--as the Governor said and, of 
course, Florida, we are all aware of, has been in the 
crosshairs because of close Presidential elections and so on. 
But it has happened in every State, I suspect, in one election 
or another.
    I think we should allow a reasonable amount of initiative 
to the people that have to carry this out and what the States 
are doing to deal with this problem, frankly. And I think the 
Governor has indicated he has bipartisan support in his State, 
and that is important I think for public confidence, for 
members of both parties as well.
    There are a lot of other issues that might well be dealt 
with at one time or another, you know, who is qualified to 
vote, helping handicapped people vote with various types of 
disabilities and so on. But the key point, after what happened 
in Florida, is to attempt to upgrade or help States upgrade the 
election process, and to make sure that we have a system that 
people have confidence in at its core; and that is what I think 
the Governor was attempting to address.
    Mr. Gonzalez. And, believe me, I appreciate the effort that 
you are demonstrating regarding this piece of legislation. It 
seems to me--and we will have this debate--that if any State 
has had experiences that leads them to probably seek the most 
thorough of remedies, it has to be the State of Florida. So I 
really applaud the Governor.
    Let me tell you what I mean by that. It seems to me that I 
know we should have a paper trail. That is important. The voter 
can then verify to make sure that those are the votes, if in 
fact the voter takes his or her time and such. And then, for 
the purpose of a recount, obviously, without a paper trail, we 
know a recount means nothing in most instances; and I will tell 
you that from my experiences in the State of Texas.
    The remedy that Florida proposes, though, it appears to 
have something in the front end; and that is that I think at 
the time of casting the ballot you have a more informed, 
thorough process at that point, if you take the testimony of 
the Governor.
    It also addresses something else other than the 
verification, the audit, the recount, which is incredibly 
important, but, at the front end, we are talking about 
undervoting, undercount--people that believe they have cast a 
vote and somehow have not.
    I really believe that Florida may be onto something, and I 
think we need to be exploring that avenue, and there is so much 
more to discuss, and I need to go. But, Madam Chair, there are 
other aspects of the voting process regarding its integrity, 
who is allowed to vote and so on. I think that is a different 
issue that needs to be dealt with, just as voter intimidation 
and denial of the right to vote by those who are eligible to 
vote. That is an argument, that is a debate for a different 
day, I believe, and that we should expend some energy on it, 
but, today, I think we are really looking at the mechanics.
    Thank you very much.
    Ms. Lofgren. Thank you, Mr. Gonzalez.
    Let me note our colleague, Corrine Brown, is here also from 
Florida. And Mr. Ehlers.
    Mr. Ehlers. Thank you, Madam Chair.
    First of all, I would observe that the ceiling never fell 
in when the Republicans were in control. Maybe we have had a 
few tremors in the last year.
    First, for Dr. Holt, a very specific question that my staff 
was wondering about. Do you know of a DRE with a VVPAT that 
currently meets the accessibility standards described in your 
bill and that would be ready for deployment in 2008?
    Mr. Holt. Yes, I think there are several. In fact, there 
were several that were on display in this very room a week or 
so ago.
    Mr. Ehlers. Okay. I would just appreciate for the record if 
you could just give those to us later. I don't want to take 
your time here.
    Mr. Holt. All right.
    Mr. Ehlers. Next, I totally agree with you. You stated your 
objective at the beginning that every voter should have the 
assurance that the vote they cast is counted and, as you said, 
verifiable. That is a good goal. I have always added a second 
one, that they also have the assurance that their vote is not 
diluted by fraudulent votes being cast elsewhere. I think that 
is very important. We often forget that.
    For example, the reason that the voting machines were 
developed, the primary reason was because of all the fraud that 
occurred with the paper ballots of that day; and I find it 
interesting back then they went from paper to machines in order 
to avoid fraud and get reliability. Now we are talking about 
going from machines to paper to get better reliability.
    I am not against your bill, by the way. I have raised a lot 
of questions about the specifics of it, but the State of 
Michigan has had several elections already using equipment 
precisely the same as what Florida is planning to install. 
Frankly, I think optical scan is a good approach, but it is not 
just the equipment. We have to get away from the idea that 
establishing equipment answers it.
    The election in 2000 in Florida had a paper trail called 
punch card ballots. It is no different from the optical scan. 
You punched the ballot, the machine counted it and so forth. 
They did not maintain it properly, and that is what led to all 
the confusion.
    So it really, once again, comes down to the local level.
    I have some 35 years' experience at local elections and 
working with Secretaries of State. Some are absolutely superb. 
In a few elections it tends to go bad, but it is not always 
just the equipment.
    One other comment, your comment about some opposition to 
your bill, and indeed there is, but I think the real issue is 
that most--the counties, the States feel it is overly 
prescriptive and that it doesn't trust their judgment to handle 
local situations, particularly I think the detailed audit 
requirements. For years, States have had a lot of audit 
requirements. It is called the Board of Canvassers, and they 
each have developed their own methods to suit their particular 
localities and particular States. So, I think the prescriptive 
nature of your audit requirement is what has alienated the 
counties and the States. The Boards of Canvassers have a very 
good record of doing this.
    These are just comments on the bill. As I say, I don't 
oppose your intent, but I think we have to be very careful. 
First of all, not infringe on what the actual poll workers want 
to say and do, but, secondly, have a reasonable approach how 
that works and not define the market simply by being very 
prescriptive.
    I do have a question for you. You are a physicist, as I am, 
and you have used computers most of your life. How did you 
verify the results of the computers when you used them?
    Mr. Holt. Usually and, in fact, it is a principle of 
computer science that a computer program cannot verify itself. 
There must be an independent verification. In other words, 
whether the landing module actually touches down or whether the 
books balance separately. Some people compare this to ATM 
machines; and I say, really, it is quite different from ATM 
machines. Because at the end of the month, you and the bank 
compare notes. But that cannot happen in the case of voting and 
still maintain the secrecy. So whenever I have done computer 
programming and I think whenever anybody does, the verification 
must come through some independent path.
    Mr. Ehlers. But also verification can come through using 
the computer appropriately. I have verified programs by using 
the same computer but taking a different approach. My point is 
simply, being overly prescriptive and requiring a paper trail, 
couldn't we also just require that there be a verifiable 
redundant trail which could, in fact, include the computer with 
an additional CPU that observes the keystrokes?
    Again, you don't necessarily have to answer that and say, 
yes, that is okay. My point is simply, let's let the market and 
let's let the county clerks, the State, the Secretaries of 
State, and the State election officials decide which system is 
best for their State. We should just establish the principle 
that the result of the voters' actions has to be verifiable, 
has to be verifiable in your language by the voter, him or 
herself, but also by the canvassers, those who tally the votes 
and so forth. Would you accept that as a guiding principle?
    Ms. Lofgren. The gentleman's time has expired, but you can 
answer that.
    Mr. Holt. I can answer that very quickly by saying there 
have been suggestions that you use a separate electronic method 
of verifying an electronic count. That would not give the 
voters confidence. Maybe someday, in which case we would want 
to rewrite and update this legislation. But I think all of the 
co-sponsors and the endorsers of this legislation believe that 
the only way we will have confidence in the voting system is 
with paper ballots that voters can independently verify.
    Mr. Ehlers. The only way I will----
    Mr. Holt. And as for fraudulent voters, there have been 
very few cases----
    Ms. Lofgren. We are going to ask----
    Mr. Holt [continuing]. Prosecuted around the country.
    Ms. Lofgren [continuing]. Congresswoman Davis be permitted 
to ask her questions.
    We are going to have I think a vote around noon, so I think 
we are going to have to ask people after this panel to stick a 
little bit closer to the 5 minutes.
    Mrs. Davis. Thank you, Madam Chair. I, too, will be in and 
out a little bit; and I am looking forward to the next panels 
as well.
    But I wonder if you could just comment--I think one of the 
criticisms perhaps in terms of this prescription has been for 
the durable and archival paper trail, and if you could just 
comment on that, whether that is something, you know, we have 
available to us so that it is not necessarily in a roll--and, 
again, how would those paper rolls--if that or something 
archival--be counted, be audited and then possibly be 
recounted?
    Mr. Holt. Is that to me?
    Mrs. Davis. Sure.
    Mr. Holt. When we wrote the bill, I didn't understand that 
archival paper has a generally understood meaning that 
archivists and book historians and others refer to. We 
definitely want, I believe, a durable paper ballot. It does not 
have to meet the standards of archival quality, and so that is 
a word that I would suggest changing in the legislation.
    I know some have said we are using thermal paper, thermal 
printer paper, and we would like to continue to use that. I had 
a good example last weekend where I got a receipt on thermal 
paper, and I just sent it to my staff yesterday. Because when I 
went to look at it again, I guess because it had been near a 
hot liquid or something, it was illegible just from last 
weekend. It is not durable. It is not the sort of thing that 
you want to count and recount weeks or even months later.
    Mrs. Davis. So this is an issue that you are still looking 
at? Just for the record.
    Mr. Holt. That is right.
    Mrs. Davis. Thank you. I appreciate that.
    I am going to ask this question to the next panel. 
Hopefully, I will be here at that time. Because what we are 
talking about really goes to the heart of voter confidence.
    One of the issues that was kind of facetiously mentioned at 
our hearing the other day, paper or plastic, as people come to 
vote, but the reality is that people choose absentee in many 
cases. They sometimes need a provisional ballot so there is an 
alternative to whatever system is in place at the precinct, and 
I am wondering if there is anything in your legislation here 
that precludes using both an electronic system and a paper 
system--well, I guess optical scans are electronic. But 
something that--where people were actually making those 
choices. Is there anything in your legislation that would 
preclude that----
    Mr. Holt. Well, I am not quite sure----
    Mrs. Davis [continuing]. As long as it has a verifiable 
paper ballot?
    Mr. Holt. Yes. What our legislation requires, that there be 
a voter-verified paper ballot. Now what goes along with that, 
we don't really specify. There are some accessibility issues 
that, you know, a purely paper system cannot help the voter 
with disabilities along with the process.
    Mrs. Davis. Exactly. And part of my question is----
    Mr. Holt. Ballot marking device certainly can, for example.
    Mrs. Davis. Right. And the issue is whether or not--and I 
didn't suspect that there was in your legislation. I just 
wanted to confirm that. Because I think that, as the Governor 
from Florida mentioned, they will have two types essentially. 
My sense would be that people, disabilities or not, might 
choose one system over another; and there may be a point at 
which we arrive at that. We are not there today, but that is 
something that we might want to do.
    Mr. Holt. The one issue on that subject that I would 
caution you on is, with all good intentions, coming up with a 
system that is separate but equal for people with disabilities, 
to the extent possible voters with disabilities should be 
permitted to vote as everyone does.
    Mrs. Davis. Right. As well. And anyone can vote on a system 
for the disabled as well. I think people could choose either 
system.
    I think that is all I am asking and just to be sure that 
that is nothing that would be in this legislation that would 
preclude that for the future.
    Ms. Lofgren. Thank you.
    We have been joined by the chairwoman of the full 
committee, Congresswoman Millender-McDonald, who will ask a few 
questions.
    The Chairwoman. Thank you so much, and good morning to you, 
members, the ranking member, good morning and good morning to 
all of you. It is great to see you here this morning.
    I am especially pleased to see my colleagues, Congressman 
Rush Holt and Congressman Petri.
    I can say unequivocally that Congressman Holt has given 
this everything he has. He has worked tirelessly to make sure 
that this bill came before the Committee, and that we recognize 
the important work that he put into it. I thank you so much for 
your tenacity and for ensuring that we try to look into 
something that is especially important to the American people. 
People want to know that when they vote, their vote is counted 
accurately. You have come up with what you perceive is a way to 
ensure that happens.
    I have just one question, and I don't know whether I can 
ask either of you. In December the Technical Guidelines 
Development Committee sent a recommendation to the Election 
Assistance Commission that said all voting systems meet 
requirements for an independent verification system that 
produces multiple independent records of ballot selections that 
can be audited to a high level of precision. Are there other 
methods for achieving voter confidence without using this 
paper? Is there anything, Mr. Holt or Mr. Petri, that you know 
about? Are you aware of that?
    Mr. Holt. Actually, I am not sure that I understood the 
question. I apologize.
    The Chairwoman. Well, that is okay. I am looking into that 
further.
    Mr. Holt. I will be happy to follow up on that.
    The Chairwoman. All right then. Is there any statistical 
data on the number of votes lost during the 2000 election 
because of overvotes and the number of votes lost in 2006 when 
DREs were used in elections?
    Mr. Holt. Well, following the 2000 election, there was a 
study done by a group of academics from MIT and Caltech that 
looked at what they call residuals, overvotes, undervotes for 
various kinds of systems.
    And that is partially out of date now because many States 
have changed their systems in the meantime. But still there are 
40 percent of Americans now who are voting in ways that are 
unverifiable on machines of the type that did not fare too well 
in those studies. So you might suspect that there are some 
problems that are going undetected because there are no paper 
ballots for the actual count.
    There have been other studies done by a variety of groups, 
more recently taking slightly different approaches. But, yes, 
there are data about overvotes and undervotes and the vendors, 
some of whom were here last week.
    The Chairwoman. Right.
    Mr. Holt. Who have changed their designs in many cases to 
try to address those issues so that they will catch overvotes, 
undervotes, intentional and unintentional.
    The Chairwoman. Okay. Well, Madam Chair, I will just stop 
there and I will resume questioning the witnesses when your 
next panel comes, because it appears to be someone that you and 
I both know.
    Ms. Lofgren [presiding]. Thank you both very much for your 
leadership on this issue.
    We are now pleased to have two secretaries of State testify 
before us: the Honorable Debra Bowen, Secretary of State of 
California; and the Honorable Chris Nelson, Secretary of State 
of South Dakota. Thank you both so much for taking the time to 
be here.
    And another friend from California. Hello, Delores.
    Our Secretary of State--and I say we are heavily 
Californian on this committee--Debra Bowen is the author of the 
first-in-the-world law to put all of California's legislative 
information on line and has required all audits to be conducted 
in public and to include absentee and early voter ballots.
    She was elected California Secretary of State last 
November. She has been a pioneer of open government, personnel 
privacy rights, and election integrity. After earning her law 
degree at the University of Virginia, she practiced corporate 
tax and ERISA law. And she was elected to the California 
Assembly in 1992, served for 8 years in the California State 
Assembly. And she became only the sixth woman in California 
history to be elected to statewide constitutional office. We 
are very proud of Debra Bowen in California.
    And the Honorable Chris Nelson, South Dakota Secretary of 
State, has been the State election supervisor in the Secretary 
of State's office for 13 years. He is currently serving, of 
course, as the Secretary of State, having been elected in 2002.
    Prior to becoming Secretary of State, he held the position 
of State election supervisor for 13 years and he received in 
2003 the 2003, Excellence in South Dakota Municipal Government 
Award from the South Dakota Municipal League. He has been 
appointed in 2005 as the National Governors Association 
representative on the United States Election Assistance 
Commission Board of Advisers. He graduated from White Lake High 
School and South Dakota State University in 1987 with highest 
honors. And we welcome you both.

     STATEMENTS OF HON. DEBRA BOWEN, SECRETARY OF STATE OF 
CALIFORNIA, AND HON. CHRIS NELSON, SECRETARY OF STATE OF SOUTH 
                             DAKOTA

    Ms. Lofgren. Debra, thank you so much for being here, and 
if you would start. We have this little machine, and we ask 
that the testimony try and be within 5 minutes. The written 
testimony will be a part of the official record. When the 
yellow light goes on it means you have about a minute left, but 
we are not too heavy on the gavel, as you have noticed. Welcome 
back, Debra.

                    STATEMENT OF DEBRA BOWEN

    Ms. Bowen. It is an enormous honor for me to be here with 
you today and I join you as a very proud American, proud of 
this country's history, of our spirit, our ability to create 
and to innovate. And I believe that the greatest innovation in 
this country's history is democracy itself. And when I work on 
these issues that involve the democratic process, I remind 
myself that in the history of civilization, there has been 
nothing obvious about self-governance.
    One of the wonderful things about democracy is it permits 
us to correct course. In fact, it demands we correct course. 
And in most of our country's early elections, voters had to be 
white, male, and own 50 acres of property in order to exercise 
the franchise. We have corrected course on that, of course, but 
we face another great challenge now, which is proving to 
skeptical citizenry that every vote counts.
    I would offer three key thoughts:
    First, at this point in our country's history, every 
State's elections affect every other State's citizens. We truly 
are interdependent.
    Second, our democracy, our self-governance has costs, but 
those costs are a small price to pay for the certainty of fair, 
open, and honest elections, with results that are beyond doubt.
    And third, we can and should accomplish the goals of having 
fair, open, and honest elections, without doubt, and we should 
do that now.
    That provision that we be able to prove that the results of 
an election are accurate is our greatest challenge. That 
verification must be publicly reviewable and verifiable. Which 
is what makes it unlike the verification of software used, for 
example, on a lunar landing module or a fly-by-wire system. It 
is not just those who are using the computer system who have to 
be able to verify its accuracy, it is every single citizen who 
relies on the accuracy of the system has to be able to do that.
    This issue, as has been discussed here today, is not 
partisan. We currently in Orange County, California have a 
situation where two Republicans, Janet Nguyen and Trung Nguyen, 
are locked in a recount with less than 10 votes separating 
them. And the e-voting experts have already been engaged.
    So what steps can States and local jurisdictions take? Our 
first step in California was to require that electronic voting 
machines have a paper trail. That has been the law in 
California since 2004, pursuant to a bill carried by Republican 
State Senator Ross Johnson, who was just appointed by Governor 
Schwarzenegger to chair our Fair Political Practices 
Commission. But having the paper trail proved to be 
insufficient and we subsequently revised our laws to require 
that that paper trail be used to conduct the mandatory 1 
percent recount that every county does before an election is 
certified.
    And even so, in California questions about voting equipment 
persist and that is why I have undertaken a top-to-bottom 
review of every voting system that we currently use. We will 
review security, accuracy, verifiability and usability not just 
for voters and disabled voters, but also for poll workers and 
elections officials. The more complicated you make a system, 
the more likely you are to make mistakes, and I think that is a 
useful principle for all of us to keep in mind.
    So while I know what I would do if I were a county 
registrar of voters--I am not; my task in California, my 
statutory mandate, is to review systems to determine whether 
they meet the basic criteria of security, accuracy, 
verifiability and usability. We have a very short time frame to 
complete this. As you all know, we have recently added a 
February 5th primary to our election schedule for next year and 
I do not want to put county elections officials in the position 
of having to purchase and deploy new election equipment 2 
months before an election or between the three elections we 
will hold next year. We will get this done and we will have 
public participation. And I would ask and hope that other 
States would do the same.
    We cannot afford another election in which the citizenry 
questions the results once the election is complete. Thank you.
    [The statement of Ms. Bowen follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.008
    
    [GRAPHIC] [TIFF OMITTED] T6023A.009
    
    [GRAPHIC] [TIFF OMITTED] T6023A.010
    
    Ms. Lofgren. Thank you very, very much. Mr. Nelson.

                   STATEMENT OF CHRIS NELSON

    Mr. Nelson. Madam Chairwoman, members of the committee. It 
is truly a privilege for me to appear before this honorable 
committee. Just one additional bit of introduction of myself, I 
also serve as a cochair of the National Association of 
Secretaries of State Elections Committee.
    The key question that I would like to answer today is this: 
How can we improve the election system in America without 
damaging the things that are currently working?
    And my answer to that question is this: I ask you to allow 
State and local election officials the time and flexibility 
needed to perfect the HAVA mandates before we go on with 
additional mandates from the Federal level.
    I can assure you that after each election, election 
officials evaluate what worked, what needs to be improved and 
what new challenges may occur in the next election, and we work 
with a passion to get it right. You heard a powerful example 
from the Governor of Florida this morning about changes that 
they are making because of the issues that they have been 
involved with. They are making those changes at the State and 
local level.
    I ask who is best positioned to drive the change in the 
improvements that are needed in our election system in America? 
I believe it is State and local officials who understand the 
landscape. I also know that what might work in Los Angeles 
County may not work very well in Jones County, South Dakota, 
with 817 registered voters, and the perfect fit for Jones 
County may not work in San Diego or San Jose. One-size-fits-all 
mandates and requirements at the Federal level simply may cause 
unintended consequences and problems when implemented at the 
State and local level. As State and local officials, one of our 
first priorities when we work on change and improvement is to 
make sure we do no harm to the things that are already working.
    I just want to address briefly two of the principles in the 
whole bill, the first being the requirement for the individual 
verified paper ballot requirement. And I want to be clear. I am 
a paper ballot advocate. I am a paper component advocate. In 
South Dakota we have adopted the optical scan system with a 
touch-screen marking device for that system. It has worked very 
well.
    But I also understand that across America hundreds of 
millions of dollars have been spent in the last 3 and 4 years 
in faithful compliance with the requirements of the Help 
America Vote Act. That money was spent to procure equipment and 
train and implement and test that equipment. And now we are 
looking at a bill that may require much of that to be scrapped 
in the next 12 months and that is a shameful, shameful waste of 
taxpayer money and I hope we can find some way to work around 
that tremendous expenditure that has already been made to try 
to comply.
    I know the bill contains $300 million to help offset those 
costs. I don't think that is going to be enough for the 
retooling that will have to happen across America with the 
requirements of the bill.
    The section 5 audit requirement provision of this 
particular bill, I absolutely agree and understand that 
accountability is a mandatory and valuable part of an election 
system. States are adopting audit requirements. States have 
provisions that can deal with these issues and are moving in 
that direction. But those provisions that States are adopting 
work in harmony with their existing procedures as opposed to 
complicating processes that are already in place.
    The audit provisions of H.R. 811, I believe, may lead to 
unintended consequences. In visiting with my State auditor, he 
said this is going to put me in a position of conflict of 
interest that we work very hard never to be in. The logistics 
are a concern to me. The audit board, is this board going to 
travel from county to county to county in some sort of 
traveling show doing vote counts? Or are we going to be sending 
ballot boxes into the State capital with all the accompanying 
security concerns that would be involved in that? I have 
questions about that.
    I have concerns about the delay that this will cause in 
certifying Federal elections. In 2004, South Dakota's lone 
House seat was vacant. We held a special election. And our 
citizens were anxious to get that position filled. When they 
elected our Congresswoman, Stephanie Herseth, we were able to 
certify that in a day or two after the election. This bill 
would require that it take several weeks before an audit would 
be complete and we would be able to install a Congressperson 
when there is a vacancy. That is an unintended problem or 
consequence.
    As you are aware, there is a provision in this bill to 
reimburse States for that audit requirement. You are also aware 
that the original Help America Vote Act contained another $800 
million of authorization to reimburse States for their costs. 
That money has never been appropriated. And I will tell you, at 
the State and county level we are skeptical whether or not the 
funds will be appropriated to pay for this new mandate.
    The last thing that I would say--and I would just ask you, 
work with us to allow us to finish implementing the original 
HAVA requirements and work out those problems that might be 
there at the State and local level before we put new mandates 
and pressures on the system. Thank you.
    Ms. Lofgren. Thank you.
    [The statement of Mr. Nelson follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.011
    
    [GRAPHIC] [TIFF OMITTED] T6023A.012
    
    [GRAPHIC] [TIFF OMITTED] T6023A.013
    
    [GRAPHIC] [TIFF OMITTED] T6023A.014
    
    [GRAPHIC] [TIFF OMITTED] T6023A.015
    
    [GRAPHIC] [TIFF OMITTED] T6023A.016
    
    Ms. Lofgren. Now we will get into our questions. I just 
have a couple of questions. In California, you are doing a top-
to-bottom review and--could this result in some machines or 
systems being decertified in this calendar year?
    Ms. Bowen. Yes.
    Ms. Lofgren. And then the counties would have to have 
another system in place by February of next year?
    Ms. Bowen. That is correct.
    Ms. Lofgren. Obviously, you wouldn't do that unless you 
felt it was possible for them to comply. How do you think this 
is going to work?
    Ms. Bowen. It is going to require a lot of teamwork with 
elections officials and the public. And one of the things that 
we can do in a primary election that we cannot do in the 
general is to lease equipment or to use equipment from other 
States. And that happened in the 2006 cycle in some places. We 
don't all go to the polls at same time.
    Ms. Lofgren. So your real deadline is November of 2008.
    Ms. Bowen. The big issue for the country is November of 
2008. And the other option, and it is one that has been used in 
California before, because we have to have an election and even 
if equipment is not what we would choose, we still have to have 
an election. But there are conditions that can be put in place 
that help make up for flaws in security, accuracy, and 
usability.
    So if we are in the situation where equipment does not meet 
the the standards, we will have some difficult choices to make 
about what conditions should be put into place. Just as an 
example, one of the difficulties we have had with some of the 
electronic voting machines is that they are in large counties. 
They are sent home with poll workers, sometimes as much as a 
week in advance, fully programmed, and stored in places that 
are not necessarily secure. One of the conditions we might 
think about is a much more secure means of delivery. That is 
available in the private sector.
    Ms. Lofgren. Correct. Let me just raise the issue of 
software. You have been a proponent, if I am correct, of open 
source. Why have you advocated that? And if you could also 
comment--I think California requires an exact copy of source 
code to be put in an escrow-type situation, and I am wondering 
has that been resisted by software companies. Could you address 
those two issues?
    Ms. Bowen. I have the software in my office, and when we do 
the top-to-bottom review we will engage experts to look at the 
software. But obviously I have fewer eyes and fewer experts to 
do that review, because some of that software is proprietary 
and I cannot release it.
    Using open source software has two advantages. One is that 
it allows everyone to review the software, and there are a very 
large number of computer programmers in this country who have 
not normally been highly active in political processes who are 
very engaged in issues around voting systems.
    And second, the ownership is in the public domain so that 
any State, any local jurisdiction, can use that software 
without paying a licensing fee; and also, then, if they are 
using open source software, can change vendors without having 
to scrap an entire system and buy everything over again.
    Having said that, an open source system that is certified 
does not currently exist. There is a system that is ready to be 
certified. I would particularly be interested in seeing open 
source software used in the tabulator, because even if we go 
back to paper ballots at the polling place, we are going to be 
tabulating, using a computer, and that counting is so critical 
and it is so important that that software be open.
    And the other place I would like to see a focus on that is 
with better disabled voting systems. We do not have, for all of 
the great innovation in this country and in Silicon Valley, we 
don't have a large number of choices in voting systems that 
meet the needs of some disabled voters.
    Ms. Lofgren. Thank you so much.
    Mr. McCarthy.
    Mr. McCarthy. Thank you both for coming. If I could follow 
up with Secretary Bowen, in listening to your statement and 
hearing you in these concerns you have, in the bill it says it 
wants this to be implemented by 2008. And it sounds like that 
would be a major concern to you. And also the only concern I 
thought I had, listening to you, was the $300 million would not 
be enough.
    Ms. Bowen. $300 million is not enough, particularly if 
States that currently have only touch-screen voting systems 
with no paper have to replace those systems. 2008 is doable for 
some parts of the bill and difficult for others. I am not going 
to ask my counties to procure something that does not exist, or 
to use it. So we have to be realistic about what exists. And 
then States need to get together and work towards creating 
systems that meet their needs.
    Mr. McCarthy. My other question to you, then, is would you 
propose to audit every Federal race, knowing some of these 
races, some are close and some are not close at all? Referring 
to our Speaker, she won with 80-some percent of the vote. I won 
with 71 percent of the vote. And you and I had a little 
discussion about time line. The Secretary talked about time 
line. Would it be feasible or would it be better to do random?
    Ms. Bowen. The best audit system, I think, is one that is 
random, but that in the randomly selected precincts does audit 
each vote, including early votes in that precinct and votes 
cast by absentee ballot or by mail ballot.
    One of the suggestions that I think has been the best is to 
then use that result to trigger a fuller review, depending on 
what the margin is. In a race in which there is only one 
candidate on the ballot, there is not a lot of need to go to a 
100 percent hand recount or hand audit. But in a race such as 
the one in Orange County right now, where they are very close, 
it is appropriate I think for elections systems to build in a 
trigger that automatically does that audit without the need for 
a candidate to post the funds to do that. It is public interest 
to have accuracy.
    Mr. McCarthy. What percent do you do in California when we 
do the random? Do we do 3 percent or 1 percent?
    Ms. Bowen. One percent.
    Mr. McCarthy. Do you feel that is sufficient?
    Ms. Bowen. It is not sufficient.
    Mr. McCarthy. What do you feel that number should be?
    Ms. Bowen. We need the guidance of statisticians. We want 
statistically significant audits and recounts. That is a 
stepped process. When I do the 1 percent count, if you get a 
result that is a significant difference you may decide that is 
not a place to recount. But this isn't a place where 
politicians should be making the calls; it is a place where--
statistics is a well developed science. We don't need to 
reinvent it.
    Mr. McCarthy. Maybe we should not sit down and mandate in 
every congressional race in California you need to do 10 
percent of the vote. Would that be feasible?
    Ms. Bowen. Of course it is feasible, but I don't think it 
makes sense. It is not the best use of the resources that we 
have.
    Mr. McCarthy. Okay. I appreciate you coming all this way. 
And congratulations, by the way.
    Ms. Bowen. Thank you.
    Mr. McCarthy. To Secretary Nelson, you talked about one-
size-fits-all does not work. If you could elaborate on that on 
some of the experiences you have had.
    Mr. Nelson. I have had a lot of years of experience working 
with the various laws--of election laws that we have to 
administer. In my written testimony I give a poignant example 
of a one-size-fits-all requirement that was in the Help America 
Vote Act. And it dealt with the requirement for putting 
minority languages on the voting machines in those areas that 
are covered by the minority language provisions of the Voting 
Rights Act.
    And in South Dakota that applies to Native Americans with 
the Lakota language. And we went to the leaders within that 
community and we said this is the new Federal requirement. And 
they said, that does not make any sense. Our people are not 
going to use that. And yet we said we have to do it. And so we 
did. And we spent $28,000 on that requirement, and 10 people 
statewide used it. It is $2,800 per voter that we spent on that 
particular requirement.
    In areas of our country where there is a heavy population 
of minority speakers, that might make sense. In other areas it 
does not, and yet that is one of the unintended consequences 
when we get Federal legislation that does not take that into 
account.
    Mr. McCarthy. Thank you both for your time.
    Ms. Lofgren. Thank you.
    The Chairwoman. It is very interesting to sit and hear the 
two of you who are the top guns, as election officials in your 
respective States, and yet as we sit here and talk to 
manufacturers and look at machines, it is disturbing to hear 
Secretary Bowen say that we do not have a lot of voting 
equipment that will work for the disabled. That seems to be a 
travesty in this country.
    Are we talking to manufacturers? Are they beginning to look 
into this? Where are we in this continuum?
    Ms. Bowen. We do have some systems that I think meet the 
needs of disabled voters quite well. There is one system that 
is a ballot-marking device that has sip-and-puff capability, 
has capability for voters who are visually challenged, and that 
ballot-marking device produces a ballot that can be optically 
scanned. That is important because it means that counties that 
use an optical scan system and that ballot-marking device for 
disabled voters only need one tabulating system, one auditing 
and review system, one place where everything is done.
    It is an enormous advantage to using optical scan ballots. 
It is a well-developed technology. You can, if you have a long 
line in a particular polling place, simply hand people the 
paper ballot and a marking device and they can shorten the line 
very quickly, if they choose to do so, by marking their ballot 
independently.
    But, again, I don't like being in a position where there 
are only one or two or three vendors. And that is a place 
where, if we don't have what we need, then I think it is our 
responsibility as election officials to get together. And 
States can do this together, and particularly with open source 
software. I think we will find that there will be foundations 
and groups who will work with us. I would expect if we come 
back with this issue in 2 years, that the landscape about what 
is available will be quite different than what it is currently.
    The Chairwoman. I had about six or seven manufacturers here 
last week with their machines, and one had a telephone-type 
machine that can be used by the disabled. How do you feel about 
that? Do you think that particular machine is good for our 
disabled voters?
    Ms. Bowen. For many disabled voters that system is 
terrific. The difficulty is that it requires a securitized 
telephone call. It depends on a call that is originating from a 
place that is known. Otherwise, an election official has no way 
of knowing that the voter who is using the code they have been 
given is actually that voter, or whether the code has been 
given to someone else, usurped by someone else, sold to someone 
else.
    In States that use that system, a disabled voter has to 
come to a polling place or to the registrar's office to be able 
to use it. We don't have a mechanism to vote over the Internet, 
not because the technology isn't there, but because we have no 
way to know who is casting that vote.
    So we will look at that system if counties in California 
want to use it. Vermont did use it. I believe it was quite 
expensive on a per-vote basis and it does not solve the single 
greatest challenge to exercising the franchise for disabled 
voters, which is transportation to the polling place.
    The Chairwoman. The vendor did state that this type of 
phone system could be used in a polling place and that would 
make it a little easier for you to track it.
    Ms. Bowen. In a polling place if you set up a secure 
connection, you can use that. But remember that polling places 
are often situated in locations that are challenged in terms of 
security. I have voted in a carpet store, I have voted in a 
garage, a living room, the fellowship room of a religious 
institution. Many of those places could not continue to be used 
with the advent of electronic voting, simply because they do 
not have the capacity to provide enough electricity to run all 
of the equipment that would be needed.
    The Chairwoman. Madam Secretary, you spoke of wanting to 
ensure that each vote is secure, accurate, and reliabe. How can 
we assure that, with everything we have just outlined, plus the 
myriad of other things that we know are taking place?
    Ms. Bowen. We have good lessons from the private sector on 
how to do this in two areas that I would suggest the committee 
review. One is in the casino industry where the standards for 
the auditing and the review of electronic slot machines are 
very stringent. They do things such as if there is a problem 
with an electronic slot, it is pulled off the floor 
immediately. We don't do that with voting machines. We reboot 
and keep the machine in service in many instances. And that is 
a matter of money. The machines are expensive. If you have to 
provide enough machines in each polling place to allow for 
difficulties in pulling a machine, you are going to spend more 
money. But the casino industry and their standards are a useful 
measuring point.
    Another place that I think it is useful to look is the 
computer game manufacturers. They have a great interest in 
keeping counterfeit software from being used, and they have 
some very clever ways of determining whether the software that 
is running on a particular game card is actually what was 
licensed by the manufacturer. Some of it is trade secret and 
proprietary. But I have been very impressed with some of the 
tools that could help us in a situation where we have to verify 
that the software that was certified is actually what is 
running on every single location, which is another challenge 
that we haven't talked about today.
    The Chairwoman. Both of those that have been cited in terms 
of looking into, in terms of helping us. And yet if it is 
proprietary, there we are back at square one.
    Will we have another round of questions, Madam Chair?
    Ms. Lofgren. No, but with unanimous consent, the Chairwoman 
has an additional minute.
    The Chairwoman. You are just a sweetheart, thank you. Just 
one more question. Some DRE touch-screen voting machines use a 
paper ballot printer. In the voting forum that I held last 
week, I witnessed a printer that used a reel-to-reel thermal 
paper roll. A version of this type of thermal ballot printer 
was also used in Cuyahoga County, Ohio in May of 2006.
    You are probably familiar with the analysis of that 
election done by the Election Science Institute. One of the 
findings of the analysis was that almost 10 percent of the 
paper ballots were missing, damaged, or blank. How does that 
compare with your experience with the thermal printer and the 
ballots printed? Either one of you can answer that.
    Ms. Bowen. I am extremely concerned about reliance on a 
paper trail that is printed either on thermal paper or on 
standard paper. The number of ways that that kind of system can 
go wrong mechanically is fairly--the list of problems, 
potential problems, is fairly long. Paper jams, overwrites. It 
is difficult, because the ballots are on a roll, to maintain 
secrecy if you only have a small number of voters voting.
    It is also difficult to audit. We do it in California 
pursuant to our law that requires that we use that paper trail, 
and it is a very cumbersome process as someone sits and goes 
through the paper and looks at the votes that were crossed out 
or unkept.
    The other issue that arises is what happens in a crowded 
polling place with long lines, where a voter may feel very 
pressured to vote because they know that there are several 
hours of people standing behind them, and the time that it 
takes to actually verify properly may mean that people spend as 
long as 20 minutes voting on a touch-screen machine.
    We also had basic problems in California in our recent 
elections, such as the county elections officials not providing 
a sufficient supply of paper. We had a poll worker in Santa 
Clara County, the home of our high-tech industry, who sent a 
poll worker to Kinko's with $40 to copy sample ballots, which, 
if marked by hand, are legally cast ballots in California. 
Otherwise the lack of paper was going to completely bring that 
polling place to a stop.
    The Chairwoman. Mr. Nelson did you want to expound on that 
a little bit?
    Mr. Nelson. We don't have any experience in South Dakota 
with that type of technology, but all of the reasons that 
Secretary Bowen laid out and the potential problems are one of 
the reasons that we chose to go with the optical scanner in 
response to the HAVA mandate as opposed to going that 
direction.
    The Chairwoman. Thank you for your courtesy, Madam Chair.
    Ms. Lofgren. Mr. Ehlers.
    Mr. Ehlers. Thank you, Madam Chair. I will try to be very 
brief because the time is wasting here.
    Secretary Bowen, I am very pleased with your last comment. 
One of the provisions of the bill I am very upset with is that 
it mandates that in case of dispute, the paper trail is the 
vote of record. I agree totally with you. I have very little 
confidence in the type of printers that you have described. I 
have seen some that I do have confidence in, but a number that 
I don't. I thank you for making that point. We simply should 
not, sitting here in the Congress, decide what is the matter of 
record. That should be up to the local election officials and 
State election officials. So I appreciate your comment.
    Also, Mr. Nelson, I thank you for your comments because it 
reinforces my observation that maybe it is because I have been 
at the local level. I have been at the State level. I have a 
lot of confidence in our people there who know how to run 
elections better than many Members of Congress do, and your 
statements certainly reinforce that.
    I yield back so that we can move on.
    Ms. Lofgren. Thank you very much. Congresswoman Davis.
    Mrs. Davis. Thank you, Madam Chair. And I just want to say, 
on a matter of personnel privilege, that I think the State of 
California is very fortunate actually to have such a diligent 
and attention-to-detail Secretary of State. And I appreciate 
that.
    And I wanted to just ask you very quickly if you could 
comment on the importance of a backup system at the polls. I 
mentioned the idea of people actually being able to choose one 
of two systems. One that would be available certainly to anyone 
who needed special assistance, but also to anybody who may be 
in line and need to vote in that way.
    Can you comment on that? And I guess for the future, what 
other issues ought we be looking at?
    Ms. Bowen. The California law already requires that a 
voter--gives the voter a right to ask for a paper ballot. The 
implementation of that has been difficult in some counties. But 
in a county that uses an optical scan system, again, that is a 
fairly simple matter because precisely the same ballot is 
created by the voter, just in a different manner.
    In a county that uses a touch screen or other electronic 
voting system, it means that the elections officers will need 
to find a different way to count hand-marked ballots. Either 
they need to have more than one voting system, they need to 
count optical scanned ballots if that is what the paper is, or 
they will be literally counting those ballots by hand as they 
do with write-in ballots and that, obviously, adds a 
significant amount of delay to the process.
    I think it is useful--backup, let me say, is a really 
critical issue that we have not addressed significantly as a 
country. We know from experience around the country that there 
will be problems at individual polling places and that you 
might have hurricanes, storms, various things, and you need to 
have a mechanism to allow people to vote. So the backup system 
is critical, and we have a lot to learn from what we did in Y2K 
and what is done in the private sector.
    When we look at our voting systems more generally and what 
issues we should be considering, we actually have very little 
academic research when it comes to usability by voters and what 
the experience of a voter--particularly one who is not 
accustomed to using ATM machines and does not have a credit 
card--what their experience is voting.
    Someone commented earlier that voting systems are only a 
small portion of the challenge that we face as election 
officials. Poll worker training and voter education are also 
very important and easier to accomplish using an optical scan 
system than using a touch-screen system. The whole audit 
procedure and the closing procedure is far simpler using the 
older technology that we have.
    So as we deal with what systems we should use, we need to 
ask for results. We need to ask for better measures of what we 
have done, and then we need to look at the overall costs; not 
just the cost of equipment, storage and all of the things we 
think of, but the costs of training, the cost of poll workers 
and the cost of educating voters. Every time we change voting 
systems, we have any number of voters who have a great deal of 
difficulty with the new system, and the same is true of poll 
workers who, as I am sure you know, are not getting younger as 
we go along.
    Mrs. Davis. Secretary Nelson, quickly.
    Mr. Nelson. One comment that I would make, when the Help 
America Vote Act was passed, one of the very first statements 
that I made in my State was that I did not want any of our 
polling places to be hostage to an electronic voting machine. 
So that if that machine went down, that things stopped and 
people could not vote. That is why we went with the optical 
scan device, with the voter assist device to mark that ballot. 
So I understand that concern.
    Ms. Lofgren. Thank you very much. Thank you to both 
Secretaries of State. We know that your days are busy ones and 
we very much appreciate that you were willing to take this time 
and spend it with us and share your expertise. Thank you so 
very much.
    Our next panel, if they could come forward, would be Tanya 
Clay House, George Gilbert, Dr. Felten and Dr. Norris.
    I would like to introduce Tanya Clay House who began her 
tenure with People for the American Way in April of 2002 as the 
senior legislative counsel. She now serves as director of 
public policy. Miss House also serves as the policy liaison for 
the the African American Ministers Leadership Council, a 
program of PFAW Foundation. She began her legislative career as 
counsel for our colleague, Congresswoman Sheila Jackson Lee. 
And in 2003 she was awarded the Congressional Black Caucus 
Chair's Award for her dedication and leadership and commitment 
in advancing the cause of civil and human rights.
    George M. Gilbert, since 1988, has been director of 
elections to the Guilford County Board of Elections, a 
jurisdiction of more than 300,000 registered voters. During his 
19 years in this position he has administered 56 elections, 
using four different DRE voting systems.
    We have also Dr. Edward Felten, a professor of computer 
science at Princeton University. His research interests include 
computer security and privacy technology law and policy. He is 
the author of Security Analysis of the Diebold AccuVote-TS 
Voting Machine Study, and his research on electronic voting has 
been covered extensively in the press. And we were fortunate to 
have him testify before this very committee in the last 
Congress.
    We also have Dr. Donald F. Norris, a professor of public 
policy at the University of Maryland, a specialist in public 
management, urban affairs, and application management and 
impacts of information technology in public organizations. He 
has consulted with local governments and State agencies for 
more than 25 years in the area of information technology and 
management.

  STATEMENTS OF TANYA CLAY HOUSE, DIRECTOR OF PUBLIC POLICY, 
   PEOPLE FOR THE AMERICAN WAY; GEORGE GILBERT, DIRECTOR OF 
  ELECTIONS, GUILFORD COUNTY, NORTH CAROLINA; EDWARD FELTEN, 
   PH.D., PROFESSOR OF COMPUTER SCIENCE AND PUBLIC AFFAIRS, 
   PRINCETON UNIVERSITY; AND DON NORRIS, PH.D., PROFESSOR OF 
    PUBLIC POLICY, UNIVERSITY OF MARYLAND, BALTIMORE COUNTY

    Ms. Lofgren. We welcome all of you. And because we have a 
vote coming soon, I will actually ask people to stay within 5 
minutes, and your written testimony will be made part of the 
official record. And if we could begin with Tanya Clay House.

                 STATEMENT OF TANYA CLAY HOUSE

    Ms. House. Good morning and thank you, Madam Chair, and 
Ranking Member McCarthy and the committee members. On behalf of 
the civil rights community, I thank you for the opportunity to 
speak with you today regarding this important issue of election 
integrity and accessibility.
    I am the director of Public Policy at People For the 
American Way and the director of federal legislation for 
Democracy Campaign on Voter Rights and Election Reform. People 
For is a national nonprofit social justice organization with 
more than 1 million members and supporters and more than a 
quarter century of commitment to nonpartisan citizen 
participation efforts.
    Since our founding, People For has urged Americans to 
engage in civic participation and sought to empower those 
traditionally underrepresented at the polls, including young 
voters and people of color. At People For, election reform is 
our number one priority. And since the debacle of the 2000 
election, People For Foundation and its key allies, including 
the NAACP and the Lawyers Committee for Civil Rights Under Law 
have led the well-known Election Protection Coalition to ensure 
that every citizen has the right to vote and to have that vote 
counted. This work, supplemented by litigation and People For's 
legislative efforts, has provided our two organizations with a 
depth of expertise on how we must continue to reform our 
election process and to protect this most fundamental right to 
vote.
    The use of nonsecure and unauditable voting technology is 
particularly troubling because it can and has resulted in the 
disenfranchisement of thousands of voters across the country. 
This problem was highlighted as a result of the implementation 
of the 2006 Help America Vote Act deadlines which precipitated 
the widespread replacement of older voting technology. Thus, 
more voters and poll workers throughout the country used new 
voting systems in 2006 than in any previous election.
    With so many counties using the new voting systems for the 
first time, the number of voting machine problems increased 
dramatically over 2004. In fact, complaints about voting 
machines outnumbered all other complaints to the Election 
Protection Hotline with voters in more than 35 states reporting 
various problems related to voting machines.
    People For supports H.R. 811 as a strong effort to change 
the status quo so that voters will have the confidence that 
their votes will be counted as cast. And we are grateful for 
your leadership, Madam Chair, on the issue of election reform, 
and in particular voting technology. We further thank the 
leadership of Congressman Rush Holt and Tom Petri and a 
multitude of others on both sides of the aisle for H.R. 811.
    This bill is notable for its efforts to accommodate not 
only the need for additional security in our elections, but 
also to demand appropriate accessibility for all voters. As a 
civil rights organization, and a close coalition partner of 
national organizations representing tens of thousands of voters 
with disabilities and minority language voters, including the 
National Disability Rights Network, MALDEF, the National 
Counsel of La Raza, and the Asian American Justice Center, 
People For is committed to ensuring that any new voting 
standards maintain the current accessibility protections 
afforded under HAVA, and all voting machines provide the 
necessary language translations in all steps of the voting 
process as required under section 203 of the Voting Rights Act.
    For this reason, People For supports the provisions of H.R. 
811 which allows States this flexibility to decide which types 
of election systems best meet the needs of its voting 
population, so long as that system is verifiable, auditable and 
secure. These provisions acknowledge that the best system in 
Utah may not be the best system in Los Angeles, and vice versa.
    H.R. 811's commitment to both security and accessibility is 
to be commended and has earned endorsements from a diverse set 
of civil rights and election integrity groups, including Common 
Cause, the Lawyers Committee, the Brennan Center, SEIU, and the 
NEA. While accessible systems that are not fully secure and 
auditable are unacceptable, secure election systems that are 
not accessible to all eligible voters likewise cannot be 
tolerated. American voters deserve and expect both security and 
accessibility. And while no language is perfect, H.R. 811 is to 
be commended for attempting to reach such a balance. My written 
testimony will expand further on our support for H.R. 811.
    Madam Chair, thank you again for your commitment to 
addressing this most pressing need of voting technology. As has 
been the case in the past three Federal elections, we expect 
that many of the races in 2008 will be very close and Americans 
deserve to know if their vote will be counted as cast and, if 
necessary, counted by fair and independent observers.
    As a member of the civil rights coalition that helped to 
draft the components of HAVA, I am vividly aware of the 
unfortunate problems that were caused by delayed financial 
support and oversight by Congress. Therefore, People For is 
committed to working with members to ensure that the proper 
funding is provided and that a reasonable implementation 
schedule is developed, so that election officials will have all 
necessary resources. And this must be done as soon as possible.
    Ms. Lofgren. Thank you very much.
    [The statement of Ms. House follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.100
    
    [GRAPHIC] [TIFF OMITTED] T6023A.101
    
    [GRAPHIC] [TIFF OMITTED] T6023A.102
    
    Ms. Lofgren. Mr. Gilbert.

                  STATEMENT OF GEORGE GILBERT

    Mr. Gilbert. I would like to thank both the Chairwomen, the 
Ranking Member, and Mr. Ehlers for allowing at least one 
election official to speak to you today. I think I am the one 
that got selected because Conny McCormack couldn't come this 
time. You are used to seeing her. A new face.
    Elections officials feel like we are the target in all of 
this. I hope I can be considered a trusted source in regard to 
not only the 19 years of election experience I have had, but 
also the fact that I spent 6 years here on Capitol Hill working 
for Senator Culver and Senator Dodd.
    When I went to the Board of Elections in North Carolina in 
Guilford County, North Carolina, I was hired by a Republican 
Majority board, and throughout the 19 years I have served under 
both Democratic and Republican Majority boards. I left 
Washington with a very deep level of confidence and respect for 
our political system, and the last 19 years of my life have 
been dedicated to preserving that.
    That same attitude is held by the vast majority of 
elections officials in this country. It is our job to maintain 
the integrity and the accuracy and the openness of our 
elections system, and we are committed to that.
    I don't know of any local election official who does not 
fully support these goals of accuracy, integrity, and security 
in elections. Contrary to the bill's implications, our election 
process today contains substantial portions of these 
ingredients already. I would argue that it contains more than 
it ever has in the history of our democracy.
    Having said that, I will jump straight to my conclusions. I 
think the most effective thing that this Congress could do do 
improve all of these approaches to all of these goals is to 
promote rapid technological development to strengthen the areas 
of weakness in our current system. H.R. 811 not only fails to 
accomplish that, but it effectively forecloses that option. By 
mandating the manual counting of paper ballots as the ultimate 
official record, the bill effectively locks everyone into 
technology that became obsolete in the 19th century. Nothing 
has changed in the last hundred years that makes managing or 
counting paper any more secure or any more accurate than it was 
in the 1890s.
    The chief historical weakness of DRE voting systems has 
been the lack of a secure independent ballot record for each 
voter's vote. The chief weakness of the paper voting systems, 
be they punch cards, optical scan or just a plain piece of 
paper, is the fact that there are frequent ambiguous votes cast 
on those ballots.
    In North Carolina in 2006, we tried the paper solution of 
an independent backup for electronic ballot records. Attachment 
1 of my prepared testimony documents the rate--I would say not 
surprising--high rate of printer failure. We feel that we can 
reduce that rate, but no printer that I have ever heard of or 
anyone has ever conceived of is going to eliminate the failure 
of those printers to produce some of the ballot records. The 
experience in North Carolina in Attachment 2, I show that we 
lost roughly 2 percent of our audit records as a result of 
that. To make the paper record the official ballot would simply 
throw out those ballots which we know voters legitimately cast.
    This experience was not isolated in North Carolina. Roughly 
half or more of the States have already adopted some form of a 
paper trail, and in every case the chief impact was to 
introduce another point of failure into the voting system.
    My attachments 3 and 4 document the ballot-marking errors. 
When we talk about the ambiguous votes that are cast on optical 
scan systems, one of the mantras in our industry is there is no 
such thing as a perfect voting system. And it is true. It 
always will be true. So I want you--if you guys will look at 
that and see that we don't have a panacea that we can fall back 
on here.
    If you calculate the time it would take to count those 
ballots manually, which I have demonstrated also in my 
attachments, you basically see that what happened in Florida in 
2000 is that they were asked to do the impossible; and that is, 
to count millions of votes by hand in too short a period of 
time.
    Ms. Lofgren. We will make all those documents part of the 
record, thank you. Dr. Felten.
    Mr. Felten. Thank you Chairwoman Lofgren, Chairwoman 
Millender-McDonald, Ranking Member McCarthy, and Congressman 
Ehlers for the opportunity to testify today and give you my 
perspective on electronic voting and H.R. 811.
    Computers clearly have a role to play in our elections, but 
figuring out their appropriate and best use is a difficult 
question. We don't need to choose between an all electronic 
system and a paper system. Instead, we should use computers and 
paper together so that each one can do what it does best and 
each can compensate for the drawbacks of the other. Such a 
system combines paper and electronic elements and can be easier 
to use, more reliable, and more secure than either an all 
electronic or all paper system.
    The starting point for understanding what kind of system we 
should use is to ask which things computers do well and which 
things are better done on paper. Computers do several things 
well. They report election results quickly. They can be 
accessible to disabled people. And they can help voters find 
and fix errors before the ballot is cast. Though these promises 
are not always met in practice, they are reason enough to give 
computers a role in our elections.
    But the one thing that today's computers cannot do is 
provide a simple and transparent way to record and store votes. 
What happens inside an electronic voting machine is very 
complicated and cannot be inspected directly by the voter or in 
most cases, indeed, by independent experts.
    Because electronic records lack transparency, systems that 
rely on them are subject to security attacks that can modify 
votes undetectably, as with the the voting machine virus my 
colleagues and I demonstrated in Diebold touch-screen voting 
machines. Even in the absence of a security attack, problems in 
all electronic systems are very hard to diagnose.
    Our elections system must therefore be software 
independent, meaning that its accuracy does not rely on the 
correct functioning of any software system. Thus far, computer 
scientists haven't found any way to ensure the correctness of 
computer software programs, whether in a voting machine or in a 
personal computer. And instead of pretending that we are able 
to ensure the correctness of software, we need instead to have 
a system that records and counts the votes accurately even if 
the software malfunctions and the only practical way to do that 
today is to use paper ballots.
    By comparison to electronic records, paper ballots are much 
more transparent. A properly designed paper record conveys the 
voter's intent clearly and the voter can confirm this by 
inspecting the paper record. Blind voters can do this with the 
help of assistive technology. And unlike a volatile electronic 
record, a durable paper record will not change unexpectedly and 
mysteriously.
    So looking at the strengths and weaknesses of electronic 
and paper-based systems, we can draw two conclusions. First, 
the primary record of a vote should be paper, because paper 
recording is more transparent and voter verifiable.
    Second, computers can sensibly be used for other parts of 
the voting process, such as entering the votes, providing a 
quick count subject to auditing, and helping reduce voter 
error. This is the blueprint that H.R. 811 follows. It requires 
the use of a durable voter-verified, private paper ballot. But 
beyond this, it gives States and localities a choice of whether 
and how to use computers in their elections.
    Different jurisdictions will use computers differently. 
Some will use a DRE touch screen with a ballot under glass 
paper trail. Some may use optical scan. Some may use ballot-
marking devices. There are different kinds of paper trail 
systems, even within each of these categories. As long as there 
is a suitable ballot and appropriate technical standards are 
met, each jurisdiction can use its own approach.
    Computers can count and tabulate ballots quickly, so many 
jurisdictions will want to get quick electronic counts when the 
polls close. But because the paper ballots are the primary 
records, we need to make sure that the paper records and the 
electronic records match. The solution to this is a random 
audit in which we count a large enough random subset of the 
paper ballots and compare the results to the corresponding 
electronic count. This, again, is the approach taken by H.R. 
811.
    There will be times, unfortunately, when the paper record 
is lost or corrupted. This will be very rare in a well-designed 
system, but we need to have a fallback in case that happens. 
That is why it is appropriate to say if there is a suitable 
showing with respect to problems or failures with the paper 
record, we can switch to the electronic and use it as the most 
accurate component.
    Improving our elections is going to cost some money, but I 
think this is a bargain if it brings our elections up to the 
level of security, reliability, accessibility, and privacy that 
all citizens deserve. Computers cannot only stop being a 
liability in election security, but they can become an asset if 
we use them correctly. And passing H.R. 811 would be an 
important step in realizing that promise. Thank you.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Gilbert follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.017
    
    [GRAPHIC] [TIFF OMITTED] T6023A.018
    
    [GRAPHIC] [TIFF OMITTED] T6023A.019
    
    [GRAPHIC] [TIFF OMITTED] T6023A.020
    
    [GRAPHIC] [TIFF OMITTED] T6023A.021
    
    [GRAPHIC] [TIFF OMITTED] T6023A.022
    
    Ms. Lofgren. And, finally, Dr. Norris.

                    STATEMENT OF DON NORRIS

    Mr. Norris. Madam Chairperson, members of the committee, 
good morning. A very special good morning to Congressman Ehlers 
whom I haven't seen in about 30 years. How are you?
    I am very pleased to give testimony this morning on H.R. 
811. If I still lived in Grand Rapids, he would be my 
Congressman.
    In the available time I will address what I believe are 
serious limitations of the bill. My written testimony goes into 
greater detail. First let me say I think the intent of the bill 
to require voter verification of ballots cast is a noble and 
worthy one. Unfortunately, I think the methods set forth in the 
bill to achieve this is quite flawed--the paper trail 
requirement.
    In effect, as the bill is written it would require all the 
United States to return to using paper ballots in elections. It 
would put an end to electronic voting and it would 
significantly stifle or indeed kill innovation in voting 
technology. I have heard that from vendors.
    Paper ballots are notoriously susceptible to fraud. One of 
the main reasons we moved to machine voting in the 1900s was 
because of fraud with paper. Paper ballots can and frequently 
have been lost, stolen, or damaged. Entire ballot boxes lost, 
stolen, or stuffed. And I would expect that we would have other 
problems of a similar nature if we go back to paper again.
    As a political scientist--I am not a computer scientist but 
I have a long background in IT--I am far more concerned with 
the probability of election fraud with paper than with an 
electronic system, in part because it takes far less skill to 
steal a paper ballot, to counterfeit a paper ballot and stuff a 
ballot box than it does to diddle with a DRE.
    Ordinary people can tamper with paper. It takes specialized 
knowledge and skills about computer hardware and software to do 
that with electronic voting.
    One of the reasons that proponents give for wanting to 
return to paper ballots is that, quote, the people are 
demanding verification. In studies that I have done and studies 
that I have seen, the evidence does not support that claim. 
People--observable behavior, people go vote. They vote on the 
equipment that we are giving them. They do not indicate that 
they have a crisis of confidence in voting systems. And again 
there are surveys and observable voting behavior to demonstrate 
this.
    There is evidence, however, that voters do not want to and 
probably will not verify their votes when given the opportunity 
to do so, evidence from actual elections and from usability 
studies. Evidently people simply want to vote and get out of 
the voting booth.
    There are different ways to add paper to the election mix. 
One is the VVPAT and the another is the optical scan. Both have 
limitations. Indeed, as one of the speakers on this panel said, 
there is no perfect elections system, regardless of technology.
    Adding paper, whether VVPAT or optical scan, increases 
time, it increases complexity, it increases the difficulty of 
election administration and the probability of equipment 
malfunction and so on and so forth. It also requires more 
training for people in the field who are actually managing 
elections.
    Mr. Norris. Printers regularly jam and fail, optical ballot 
systems can fail due to calibration problems, can and have 
failed due to calibration problems.
    I am not against, by the way, any of these technologies. I 
am merely pointing out that they all have limitations.
    Another reason proponents give for paper ballots is the 
need to audit elections and recount and do recounts. In nearly 
every election where recounts have been undertaken with paper 
ballots, the voting tally that is completed manually by human 
beings--that is, by us--produces inconsistent and sometimes 
conflicting findings. Think of Florida 2000, think of 
Washington State 2004.
    Further, the claim that electronic systems are inherently 
insecure is based on a faulty assumption that goes something 
like this: Yes, computers can be diddled, but the assumption 
is, given the right tools, the right amount of time and 
unfettered access to an electronic voting machine, a 
knowledgeable person can insert malicious software and produce 
erroneous results or do other bad things. It is a far-fetched 
scenario, and it is not something that has happened in an 
actual election to date.
    Security around electronic systems is far from perfect, but 
it can be improved and made very, very robust.
    I guess I have got just a few seconds left, so let me just 
wrap up by saying that I don't believe there is a compelling 
technical reason to abandon electronic voting. I don't think 
there is a compelling policy reason to require paper. I think 
it would be far better for this bill to require independent 
voter verification, but to remove all references to any 
particular technology and let the State and local governments 
and the marketplace figure out how best to do this.
    Thank you very much.
    Ms. Lofgren. Thank you. We are going to limit ourselves to 
3 minutes on the questions, so we can get to the final panel; 
and I will start with my 3 minutes, which is to Dr. Felten.
    I still talk about the testimony you gave before this 
committee last September, about how easy it is to hack a 
computer and the key from the minibar. I remember it was 
Benedict Arnold who beat George Washington in your display.
    Can you describe what the concern is as a computer 
scientist on these computer systems?
    Mr. Felten. Sure. The concern is that these things, being 
computers, will do what they are programmed to do; that is, 
they will do what the person who created the program wants them 
to do.
    And what we were able to demonstrate is that with as little 
as 1 minute of access to a Diebold touch-screen voting machine 
and with this key which is for sale on the Internet, you can 
inject malicious software into a Diebold voting machine which 
causes it--that causes it to count the votes incorrectly. And I 
demonstrated this live, as you referred to, before the full 
committee at a hearing in the fall.
    So the concern is that these machines are vulnerable to 
tampering. And I would add that in every election since New 
Jersey has adopted electronic voting, I have had private access 
to the voting machines used in my precinct. I could not have 
lawfully opened them and tampered with them, but if I had I 
wanted to, I could have.
    Ms. Lofgren. And how hard would it be for--I mean, is this 
creation of a virus so difficult that only--you know, really is 
not something to worry about in your judgment? Could you 
students do it?
    Mr. Felten. Yes. Students did--our students did, in fact, 
create the virus that I demonstrated. Any skilled computer 
scientist, computer programmer, would be able to do that. It is 
no more difficult than making a virus for a PC. There are many 
thousands of people, especially in your district, that have all 
of the knowledge.
    Ms. Lofgren. I think I have heard from every one of them.
    With that, I am going to yield to Mr. McCarthy for his 
question.
    Mr. McCarthy. Well, I thank you very much.
    To Mr. Gilbert, if I may: You are an elections officer, and 
I raise this question to the author of the bill because I do 
have some letters I want to submit for the record.
    Ms. Lofgren. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.023
    
    [GRAPHIC] [TIFF OMITTED] T6023A.024
    
    [GRAPHIC] [TIFF OMITTED] T6023A.025
    
    [GRAPHIC] [TIFF OMITTED] T6023A.026
    
    [GRAPHIC] [TIFF OMITTED] T6023A.027
    
    [GRAPHIC] [TIFF OMITTED] T6023A.028
    
    Mr. McCarthy. One is the National Conference of State 
Legislatures, the National Association of Counties. In 
opposition, we had the Executive Director of--the National 
Association of Election Officials are opposed to this bill, and 
I am just trying to get your feedback as to what would you 
think the rationale--why the majority would be opposed.
    Mr. Gilbert. I think the majority of them are opposed to it 
on two grounds. One is the feasibility of actually executing 
what it purports to do and the second is the cost.
    We are very concerned that implementation date of 2008 
would actually collapse the election system. We do not believe 
that it would be feasible nationwide to implement the kinds of 
changes, both procedural and technological, that this bill 
proposes by 2008.
    In terms of the paper trail, all you have to do is go out 
there and try to count paper ballots sometime, and you will see 
why we are opposed to it. We are the ones who do that. We have 
counted paper ballots by hand before, and we know how 
difficult--it is the most difficult aspect of conducting an 
election.
    You think we have complicated electronic technology; well, 
electronic technology actually simplifies things. It simplifies 
things at the precinct, it simplifies things for the 
administration of elections in the office. When you start 
throwing paper in, and particularly manual tabulation of paper, 
it becomes much, much more harder. And we know we can't do it 
accurately; I think that is the fundamental reason.
    Mr. McCarthy. Well, I thank the whole panel for their time.
    Ms. Lofgren. Madam Chairwoman.
    The Chairwoman. I, too, Madam Chair, have a letter from 
Conny McCormack. If I could please submit this for the record.
    Ms. Lofgren. That will be added, without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.029
    
    [GRAPHIC] [TIFF OMITTED] T6023A.030
    
    The Chairwoman. She too, has strong concerns about this 
bill and implementation.
    I also have a letter from Judy Duffy, the Chair of the 
Advocacy Committee of the League of Women Voters of the United 
States, raising her concerns as well.
    Ms. Lofgren. That also will be added to the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.031
    
    The Chairwoman. And, Madam Chair, with so many questions to 
raise and so little time, I am just going to ask for unanimous 
consent that my statement be submitted for the record.
    Ms. Lofgren. Without objection, so ordered.
    [The statement of Ms. Millender-McDonald follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.032
    
    [GRAPHIC] [TIFF OMITTED] T6023A.033
    
    Ms. Lofgren. Mr. Ehlers.
    Mr. Ehlers. Thank you, Madam Chair. I spent only a minute 
in my last round. I am going to spend a few more this time.
    First of all, Mr. Gilbert, thank you very much for your 
comments. It is what I have been saying all along and perhaps 
because I have had much the same experience you have had.
    Dr. Felten, have you ever sat down and counted ballots? 
Have you ever served as an election official?
    Mr. Felten. I have not, no.
    Mr. Ehlers. Okay. Let me, just to shorten things, express 
concern.
    I totally agree with the comments of Mr. Gilbert and Mr. 
Norris that paper lends itself to fraud. That is the history of 
elections with paper, and that is why we developed mechanical 
voting machines.
    Now we are in a different era; we are trying to develop 
good electronic voting machines. I agree with you that we 
haven't done that yet, Dr. Felten, but I am confident we can do 
much better than we have, certainly with a mechanical lock, if 
nothing else. I am sure we can do a little better.
    I am surprised that you are willing to put much more faith 
in a mechanical system, such as a printer, unless voters are 
actually required to sit there and read through and verify. I 
would still put more confidence in the computer, on average, 
than I would on a mechanical printer. And I am just making that 
observation, and I am not trying to set up an argument here.
    I appreciate your comments, Mr. Norris. I do question your 
wisdom in leaving Michigan going to Maryland, but that is a 
separate issue.
    Mr. Norris. That alone should probably disqualify my 
testimony.
    Mr. Ehlers. You had a lot of common sense in your comments, 
and I appreciate it. I have no problem setting up the dual 
trail requirement. I do have a problem in seeing that the paper 
trail is the record for precisely the comments made by Mr. 
Gilbert.
    You know, I sat there and calculated--pardon me, counted 
ballots. It is a very unsure operation. Humans are not 
particularly good at that, and it is very, very difficult to 
get accurate results with any large number of ballots.
    So I am not--as I said before, I am not opposed to the 
bill, but I would like to make some changes in it, and I will 
propose those changes at some future time.
    Ms. Lofgren. Thank you, Mr. Ehlers.
    And thanks to this panel. It has been a long morning, but 
we appreciate your sticking with us to give us your advice.
    Now we will ask Noel Runyan, Dr. Harold Snider, Warren 
Stewart and Commissioner Gail Mahoney to join us. And we are 
going to ask--since we are going to be called to the floor for 
a considerable period of time in a very short period of time, I 
wonder if we could ask each of these witnesses to give their 
statement within 3 minutes, as we have limited ourselves. Then 
we will know that we will get to hear everyone, and your 
official statements will be made part of the record.
    I would just note that Warren Stewart is the Policy 
Director for Vote TrustUSA, which is a nonpartisan 
organization, and he has been published in the Harvard Law & 
Policy Review.
    Commissioner Gail Mahoney is from Jackson County, Michigan, 
the Chair of the National Association of Counties, an 
organization I once belonged to as a member of the Santa Clara 
County Board of Commissioners, and a distinguished leader in 
our Nation.
    And--I will now run through my cheat sheets here--Noel 
Runyan from my neck of the woods is an engineer, and he has 
designed and manufactured the Audapter speech synthesizer and 
has worked with the Santa Clara County Voter Access Advisory 
Committee; and Dr. Harold Snider, President of Access for the 
Handicapped.

 STATEMENTS OF NOEL RUNYAN, PRESIDENT, PERSONAL DATA SYSTEMS; 
  DR. HAROLD SNIDER, ACCESS FOR THE HANDICAPPED, INC.; WARREN 
 STEWART, POLICY DIRECTOR, VoteTrustUSA; AND COMMISSIONER GAIL 
     W. MAHONEY, JACKSON COUNTY, MICHIGAN, CHAIR, NATIONAL 
                    ASSOCIATION OF COUNTIES

    Ms. Lofgren. We will call first on Noel Runyan for his 
abbreviated statement to be followed by Dr. Snider.

                    STATEMENT OF NOEL RUNYAN

    Mr. Runyan. Madam Chairman----
    Ms. Lofgren. Could someone turn on the mike, please? Thank 
you so much.
    Mr. Runyan. Madam Chairman and members of the board, I 
would like to sincerely thank you for inviting me to testify 
today on improving access to voting systems.
    As an electrical engineer and computer scientist, I have 
spent 36 years of working on human factors and access to 
systems for people with disabilities. I have also spent the 
last 4 years working on accessibility of voting systems.
    When the HAVA bill was introduced, I thought it was really 
exciting times for us because it would get rid of hanging-chads 
overvoting, and it would allow a lot of folks to have the kind 
of accessibility that we had learned to use on our own computer 
systems and other information systems. And they promised that 
the systems would be rigorously, federally tested to make sure 
that they were secure and accessible and accurate.
    So when I first went to vote in Santa Clara on the Sequoia 
electronic voting machines about 3 years ago, I was very 
disappointed when they--after 45 minutes of diligently working, 
calling tech support, poll workers were not able to get the 
system working with audio output so that I could use it, I had 
to have somebody else vote for me.
    Out of five elections now, in which I have used the Sequoia 
voting system, in three of those, the poll workers were never 
able to get the system working by themselves. And in fact, in 
one of them, my wife asked for and was loaned the manual so 
that she could read the manual and figure out how to get the 
system working with audio for me. It seems that we shouldn't 
all have to have a very brilliant wife that is a computer 
scientist to go along with us to vote.
    So I got very involved in studying the accessibility of 
these systems, and very concerned about both their access and 
security; and found that there were a lot of folks that weren't 
getting full access to these systems, in some cases because 
they were too complicated for poll workers and, in others, 
because of very limited design capabilities for providing 
accessibility--accessibility for people with physical 
disabilities, cognitive disabilities, or with special or 
alternative language needs.
    And, as an example, many of them did not even have 
simultaneous audio and visual or large print magnification, so 
important for so many elderly folks that need to use it.
    Ms. Lofgren. Right. Mr. Runyan, we are going to have to ask 
you to wrap up so we can hear all four of you.
    Mr. Runyan. I will try to wrap up very quickly here.
    Ms. Lofgren. Thank you.
    Mr. Runyan. But as we found, the systems needed to be made 
more secure, and so we ended up having to look at using paper 
which was not accessible.
    It turns out that over the years, now we have developed 
accessible ballot marking systems and that those are usable and 
I would like to submit both my report--my access report and a 
letter today, which we have had several people join onboard to 
say, we as people with disabilities do support accessible paper 
voting systems.
    Ms. Lofgren. Mr. Runyan, we will make both those statements 
part of the official record. And now we will call on Dr. 
Snider.
    [The statement of Mr. Runyan follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.034
    
    [GRAPHIC] [TIFF OMITTED] T6023A.035
    
    [GRAPHIC] [TIFF OMITTED] T6023A.036
    
    [GRAPHIC] [TIFF OMITTED] T6023A.037
    
    [GRAPHIC] [TIFF OMITTED] T6023A.038
    
    [GRAPHIC] [TIFF OMITTED] T6023A.039
    
    [GRAPHIC] [TIFF OMITTED] T6023A.040
    
              STATEMENT OF HAROLD W. SNIDER, PH.D.

    Mr. Snider. Thank you, Madam Chairman. It is a privilege 
and an honor to speak before the subcommittee, and I am very 
grateful for your invitation to do so.
    First of all, I want to repeat what I said to Congressman 
Holt outside this hearing, not since the passage of the 
Americans With Disabilities Act have we had a Member of this 
House reach out to the disability community to take input on an 
issue as we have had with Congressman Holt on H.R. 811.
    I said to him that I have substantial disagreements with 
him about H.R. 811, that are outlined in my testimony; and I 
will look forward to involving in engagement with his staff to 
try to work some of those out. We may be able to do it, we may 
not, but there is a good-faith effort certainly on my part and 
I am sure on his part to get that done. So I commend him 
strongly for his efforts.
    The real problem with H.R. 811 is, it unnecessarily slows 
down the process of enfranchisement of people with disabilities 
into the voting process by requiring that DRE, touch-screen, 
machines also generate a verifiable paper trail that can be 
verified by disabled and blind, visually impaired voters.
    In the 30 years that I voted in almost 30 elections, two 
every 2 years or so between 1972 and 2002, I met more 
illiterate and ignorant poll workers who couldn't accommodate 
my needs and who discriminated against me in the most horrible 
ways you could imagine. And HAVA changed the playing field for 
me and for other people with disabilities.
    While I was an employee of the Republican National 
Committee, I worked with disabled voters who were completely 
apathetic about the voting process because accessibility was 
denied.
    The problem with H.R. 811 is, it slows down the 
implementation of the provisions of HAVA to the extent that 
people with disabilities won't get accessible voting until 
perhaps the middle or end of the next decade of this century.
    Ms. Lofgren. Dr. Snider, you only have about 30 seconds 
left. I wanted to warn you.
    Mr. Snider. And what concerns me most, people don't have 
confidence in the technology that exists in the 21st century.
    I hope that the Congress will keep the promise of HAVA 
while fixing some of the problems which exist.
    Thank you, Madam Chairwoman.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Snider follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.041
    
    [GRAPHIC] [TIFF OMITTED] T6023A.042
    
    [GRAPHIC] [TIFF OMITTED] T6023A.043
    
    Ms. Lofgren. Mr. Stewart.

                  STATEMENT OF WARREN STEWART

    Mr. Stewart. Madam Chairwoman, distinguished ranking 
member, members of the subcommittee, thank you for inviting me 
to address you on this very important hearing on H.R. 811.
    The most critical components of this bill are the 
requirement for a voter-verified paper ballot of every vote 
cast; the establishment of routine random hand-counted audits; 
the requirement that the audits be completed before the Federal 
race is certified; and the increased transparency and public 
oversight of the testing of voting machines that the bill 
promotes.
    Responding to widespread concern about the design of 
existing audit trail printers, H.R. 811 would require that the 
paper records be printed on durable paper capable of 
withstanding multiple counts and recounts; and the bill also 
would require a verification that the voter's selections on the 
paper record be accessible to voters with disabilities. All of 
these requirements are more--are desperately needed to restore, 
protect and preserve the integrity of our elections; and it is 
absolutely critical they be implemented in time for the 2008 
elections.
    It is essential that the authorization in this bill be 
sufficient to cover the cost to counties of implementation. I 
have developed a cost projection to determine the authorization 
necessary for States to meet the proposed requirements, section 
2 in H.R. 811; and I would be happy to discuss that with the 
members of the committee at any time. In preparing my cost 
projection, I organized the Nation's approximately 187,000 
voting precincts into three broad categories based on the 
voting system employed last November for in-precinct voting.
    In the first category were those precincts in which voters 
marked paper ballots by hand, or with ballot marking devices 
provided for compliance with the disability access requirements 
of HAVA. There were just over 46,000 such precincts in 35 
States, including every precinct in 17 States. These precincts 
would not be required to make any changes to comply with the 
requirements of 811.
    In the second category were those precincts where all 
voters voted on direct recording DRE voting systems, just over 
74,000 precincts in 27 States. I'm sorry about all the numbers. 
To meet the requirements of 811, these precincts would need to 
either replace their entire voting system with a paper-ballot 
ballot marker system or retrofit their DREs with compliant 
durable and accessible voter verified paper audit printers.
    Finally, there were precincts in which most voters used a 
paper ballot system and a DRE was provided merely for HAVA 
compliance, and that is about 50,000 precincts in 23 States.
    There would be basically three approaches for precincts in 
the second two categories to meet the durability and 
accessibility requirements of 811. One approach would be to 
replace DRE systems with paper ballot optical scan systems and 
ballot markers. In all DRE precincts, this would require the 
purchase of one paper-based optical scan scanner per precinct 
and one ballot marker. In mixed precincts, they would only 
require the purchase of a ballot marking device.
    The language of H.R. 811 allows the use of DREs, but only 
if they are equipped to provide every voter with the 
opportunity to review a software independent record of their 
votes. Technology required for such printer exists, but there 
are currently no add-on printers for DREs that meet these 
requirements.
    A third approach would be to take advantage of the 
accessible features allowed by the computer interfaces of DRE 
and attach printers that would generate durable paper ballots 
that could then be scanned for counting and also for the 
special needs verification for voters that need them.
    I am going to be very quick.
    I base my projection on a cost average--on an average cost 
of 5,000 per precinct optical scanner and $5,000 for ballot 
marking device. It is impossible to anticipate with certainty 
the cost of compliant add-on printers for existing DREs since 
they are not currently on the market, but each such printer 
would likely cost less than the cost of a precinct scanner.
    Ms. Lofgren. Mr. Stewart----
    Mr. Stewart. I will be quick, sorry.
    However, DRE voting systems require multiple voting 
machines in each precinct, compared to only one scanner. So the 
costs are roughly the same.
    Let me just jump to the critical question here.
    Ms. Lofgren. The study would be very useful and we would 
like to make that a part of the record if we could.
    Mr. Stewart. Just quickly to conclude. Based on my 
research, the costs of bringing every precinct in the country 
into compliance with the requirements of 811 would be more than 
double the $3 million that is currently authorized in the bill; 
and in order to ensure that States have everything they need to 
meet the requirements, I urge the subcommittee to increase the 
bill's authorization to $1 billion.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Stewart follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.044
    
    [GRAPHIC] [TIFF OMITTED] T6023A.045
    
    [GRAPHIC] [TIFF OMITTED] T6023A.046
    
    [GRAPHIC] [TIFF OMITTED] T6023A.047
    
    [GRAPHIC] [TIFF OMITTED] T6023A.048
    
    [GRAPHIC] [TIFF OMITTED] T6023A.049
    
    Ms. Lofgren. And now we are going to turn to our last 
witness. Commissioner Mahoney, thank you so much for being 
here.

           STATEMENT OF COMMISSIONER GAIL W. MAHONEY

    Ms. Mahoney. Thank you and to both Chairwomen and to 
Ranking Member McCarthy, and certainly to Congressman Ehlers 
from the great State of Michigan where I come from.
    My name is Gail Mahoney, and I am representing the National 
Association of Counties today, all of your constituents back 
home; and it is my pleasure to be here and to have the 
opportunity to speak for NACo. To be the cleanup woman at the 
end, I really should be allowed just a couple extra minutes, 
but as long as----
    Ms. Lofgren. Until the bell rings.
    Ms. Mahoney. My testimony is in the record and all of the 
documents that we have asked to be entered into the record. I 
am just going to applaud, first of all, your leadership and 
concern for trying to ensure public confidence in our 
democracy.
    I do support the goals of H.R. 811. Every voter must have 
confidence that their vote counts, that the candidates that 
they have chose will be counted, and that those things can be 
audited. We do support it.
    But the main thing is that the intent is going to totally 
bring results that we don't want. I think voter confidence will 
totally be eroded, because this bill, being rushed at this 
point, will cause people to think less of the voter system if 
we rush this for 2008.
    There is no way the counties have the money; it is an 
unfunded mandate.
    I am from the great State of Michigan, like I said, and 
certainly the State of Michigan cannot fund again. We do use 
optical scan in Michigan, but right now there are counties that 
have the DREs. There is no way by 2008 that those systems can 
be changed to meet this deadline.
    So we certainly do not want a deja vu to occur. The 
deadlines that proceed the standards, the National Institute of 
Standards and Technology would be issuing guidelines for 
experimental new forms and ballot scanning technology 2 years 
after it reaches the polling places in America, which requires 
starting to use the equipment before it has even been mandated.
    So we just want to ensure public confidence in the next 
generation of voting equipment. We urge you to try to slow down 
this legislation and give us an opportunity to have HAVA to 
work as it was intended. And had HAVA had the support 
financially and the time frame that was originally intended, we 
would not be here today. We would not be attempting to scrap 
billions of dollars of equipment that cannot feed your 
constituents back home.
    So, certainly, the waste of tax dollars. We will not be 
ready.
    And so we would just like finally to urge you to--a uniform 
ballot and standard voting equipment would be impractical. It 
will stifle innovation for the future and greatly magnify the 
efforts of unintended consequences.
    Our Nation should not look for a single dramatic solution, 
but for a sustained effort to make improvements and eliminate 
sources of error.
    Thank you very much for the opportunity to testify before 
you today on behalf of NACo.
    Ms. Lofgren. Thank you so very much.
    [The statement of Ms. Mahoney follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.050
    
    [GRAPHIC] [TIFF OMITTED] T6023A.051
    
    [GRAPHIC] [TIFF OMITTED] T6023A.052
    
    [GRAPHIC] [TIFF OMITTED] T6023A.053
    
    [GRAPHIC] [TIFF OMITTED] T6023A.055
    
    [GRAPHIC] [TIFF OMITTED] T6023A.056
    
    [GRAPHIC] [TIFF OMITTED] T6023A.057
    
    [GRAPHIC] [TIFF OMITTED] T6023A.058
    
    [GRAPHIC] [TIFF OMITTED] T6023A.059
    
    [GRAPHIC] [TIFF OMITTED] T6023A.060
    
    Ms. Lofgren. And we are going to limit ourselves again, if 
we could, to 3 minutes of questions; and I will ask Mr. Runyan, 
who is from my county, what you would recommend be deployed in 
those precincts that have paperless DREs currently deployed.
    Mr. Runyan. What would be deployed in terms of Holt or what 
would be----
    Ms. Lofgren. What do you recommend in terms of 
accessibility as well as accountability?
    Mr. Runyan. Well, I think, as Secretary of State Debra 
Bowen had pointed out, that one of the better solutions today 
is a blended solution with optical scan and accessible ballot 
marking systems; and that would be, as is in my report, my 
general recommendation for most areas.
    Ms. Lofgren. And do those systems already exist?
    Mr. Runyan. Yes. Right. There are systems like this. They 
have been tried. They are certified and they have been used in 
several different States.
    A good model is New Mexico, where they completely threw out 
the DRE machines and replaced them; and it was actually cheaper 
than what they were going to have to do to upgrade their 
systems.
    Ms. Lofgren. I am going to yield to Mr. McCarthy in view of 
the time.
    Mr. McCarthy. I just want to thank all the panelists for 
coming and testifying. I do want to thank the Chairwoman for 
holding this examination of H.R. 811 and for the panels that we 
had earlier this week and last week.
    I think something that I take from this, kind of from all 
the witnesses, whether they support or oppose, there is still 
work that needs to be done on this bill.
    Ms. Mahoney. Absolutely.
    Mr. McCarthy. For it to be more money, for it to be what 
you mandate. And it sounds like everybody wants to work towards 
it, that, yes, there is a place people want to get to, but it 
doesn't seem like this bill is done yet. And we have an 
election fast approaching.
    And what is an interesting point--and one of our first 
individuals that was testifying today was the Governor of 
Florida, and as he begins to move on the improvements he has 
made down there, regardless of where this bill goes, he is 
moving up his election. And to make a dramatic shift prior to 
an election, especially when you have a Presidential election--
you have a lot of the States moving their primary up--I do 
think we have a goal of what to work towards.
    The bill has some concepts in there I think people want to 
work on, and I look forward to working with everyone, trying to 
produce a bipartisan bill and something that everybody can 
agree to.
    Ms. Lofgren. Madam Chairwoman.
    The Chairwoman. First of all, I would like to have everyone 
who is here today know that this panel has submitted a letter 
to the appropriators, asking for the remaining $800 million; 
and of course, as we have heard today, that may just be a drop 
in the bucket. But at least this committee has gone forward 
with the whole notion of trying to get the rest of the money 
from HAVA.
    Mr. Stewart, in your testimony, you stated that the 
jurisdictions would be able to implement these changes before 
2008. What are you basing that on? Whereas Conny McCormack, the 
Registrar Recorder/County Clerk in my County of Los Angeles, 
sent me a letter stating that mandating major changes to the 
2008 election cycle would invite significant problems.
    Mr. Stewart. I would point to the fact that Governor Crist 
is intending to make changes which are like the H.R. 811 
changes before his primary in February. The fact that New 
Mexico switched from DRE voting to optical scan in the course 
of about 2 months, it is not optimal. They received their 
scanners in August of 2006, and they were using them in early 
voting in October.
    I would point to--in my written testimony, I make reference 
to the former EAC Commissioner, Ray Martinez, who spoke to the 
Financial Services Subcommittee of the Appropriations Committee 
a couple of weeks ago and described his experience. He was 
engaged as a consultant for the State of New Mexico in 
overseeing that implementation. It wasn't optimal time, but 
they did succeed and had a successful election in doing that.
    I would also look at other States that have made that 
change relatively quickly. I would say, moving to a less 
complicated system like an optical scan system, which is easier 
for poll workers to be trained to use, would also facilitate 
the implementation of this bill.
    The Chairwoman. Just a statement: Commissioner Mahoney did 
say that there would be challenges if this bill would come into 
play for 2008, especially for county election officers.
    Thank you, Madam Chairwoman.
    Ms. Lofgren. Mr. Ehlers.
    Mr. Ehlers. Thank you, Madam Chair.
    First of all, I want to apologize to the panel for rushing 
your testimony. We don't like it that way, but the floor rules 
around here. When we have to be down there to vote, we have to 
be down there to vote.
    I do appreciate the comments and the testimony offered. We 
had a couple of hearings on this bill last year. We have now 
had this hearing. I think we have heard ample testimony. It is 
pretty clear what the different individuals and groups think, 
and it is also very clear that this is something that is going 
to be very difficult to rush just because of the difficulty of 
implementing something like this very quickly, particularly 
since we haven't even ended paying for the last changes made.
    Given our current budget situation, it is going to be hard 
to scrape up a lot of money out of the Congress to rush this 
through. That doesn't mean it can't be done, but it is going to 
take State and local money to do it if you want it done by that 
date. The direction, I think, is pretty clear.
    As I mentioned earlier, I will be preparing some amendments 
or a substitute to try to include a number of the comments that 
have been made here. Thank you to all of you for being here. 
Thank you, especially, Commissioner Mahoney; we appreciate you 
being here and representing the great State of Michigan.
    Actually, I am amazed at how well we have done in Michigan 
under HAVA with the optical scan. The only problem I know of 
last year was caused by the incompetence of a certain city 
clerk who then proceeded to lose her own election. So 
incompetence has its own reward.
    So we appreciate the work you have done. We appreciate your 
comments and that applies to everyone who is here. Thank you 
very much.
    Ms. Lofgren. Thank you very much.
    The Chairwoman. Madam Chair, I have a point of personal 
privilege.
    Thank you so much for this hearing today. We had excellent 
panelists, and I agree with the Ranking Member of the full 
Committee in saying they had to rush through, but we got the 
idea. So thank you very much for this.
    Ms. Lofgren. Thank you very much. And I just appreciate 
everyone who has taken their time to share their expertise.
    And I would note, Mr. Stewart, the analysis that you have 
done will be enormously helpful. I am not aware of anyone else 
who has done that, and we don't actually have a hard copy of 
it, so if we could get that from you, that will be so useful.
    Mr. Stewart. Would you prefer it on disk or by e-mail? 
Anyway, I can work it out with your staff.
    Ms. Lofgren. Thank you very much and thanks to all of you.
    The subcommittee will hold the record open for 5 days for 
members andwitnesses who wish to submit additional materials in 
writing.
    And, again, thank you so much. The hearing is adjourned.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]
    [The information follows:]
    Insert:
    I am writing to ask you to oppose the Holt Bill in its entirety. HR 
811 contains many dangerous provisions that, if implemented, will 
surbvert our democratic processes and our ability to have citizen 
oversight over our elections:
          <bullet> It has a huge unfunded mandate (estimated $4 billion 
        to pay for the text conversion device alone) that will send our 
        cities and towns deeply into debt.
          <bullet> It mandates nonexistent, untested and uncertified 
        equipment (text conversion device) for use in the 2008 
        elections.
          <bullet> It makes permanent the EAC and thereby centralizes 
        electoral regulation and control, giving unprecedented and 
        undemocratic power to the White House over the nation's 
        elections.
    The EAC as an entity composed of four presidential appointees, even 
in an officially non-regulatory role wields inappropriate power over 
our national elections through its voting equipment certification 
program and its ``voluntary'' voting system guidelines. According to a 
recent GAO report, up to 44 states require compliance with federal 
voting system guidelines, which effectively makes the EAC program 
regulatory. In addition to the affront this manifests to our concept of 
decentralized power, the EAC voting system guidelines and certification 
program place an emphasis on technology over democracy, proposing high 
tech, high cost, pie in the sky solutions that are unworkable and will 
destabilize our election systems nationwide. This is a national 
security threat we can not afford. The EAC must be abolished per the 
HAVA directive to sunset it in 2006. Any necessary and positive 
functions it serves can be reassigned as shown below.
    The untenable and unworkable nature of the Holt Bill proposals are 
evidenced in its universal rejection by all state and local election 
officials as represented by the National Association of Secretaries of 
State, the National Conference of State Legislators, and the National 
Association of Counties. They unilaterally understand the unfunded 
costs required to implement this bill, the unrealistic timelines, and 
the threat it represents to state sovereignty.
    One analysis indicates that in order for our state to comply with 
the EAC-recommended and Holt-mandated text conversion requirement, it 
would have to do some or all of the following in time for the 2008 
elections:
          <bullet> Completely redesign its ballot, possibly in a 
        technology-friendly but non-voter-friendly manner
          <bullet> Revise its election laws to support the new ballot 
        design and technology
          <bullet> Purchase entirely new election equipment for the 
        entire state
    The destabilizing effect these actions would have on the state of 
New Hampshire and the ability of its citizens to exercise their 
Constitutional right to vote in free, fair, and open elections would be 
multiplied as each state across the nation attempts to comply with 
these requirements according to its own particular election 
configurations.
    Although I am not your constituent, I am asking you to represent 
the nation by opposing this bill completely, to not offer any 
amendments, but rather to work with us on better and more realistic 
solutions that will further election integrity for our nation.
    Suggestions for alternate legislation may be found in the 
references below.
            Sincerely,
                                                        Nancy Tobi.
    The EAC's functions, as described on its website, are listed here 
in bulleted format, with suggested handover to other entities in ALL 
CAPS:
    * Generate technical guidance on the administration of federal 
elections.--HAND OVER TO NIST & STANDARDS BOARD
    * Produce voluntary voting systems guidelines.--HAND OVER TO NIST & 
STANDARDS BOARD
    * Research and report on matters that affect the administration of 
federal elections.--HAND OVER TO STANDARDS BOARD & CITIZENS GROUP
    * Otherwise provide information and guidance with respect to laws, 
procedures, and technologies affecting the administration of Federal 
elections.--HAND OVER TO STANDARDS BOARD & CITIZENS GROUP
    * Administer payments to States to meet HAVA requirements.--HAND 
OVER TO GENERAL SERVICES ADMINISTRATION
    * Provide grants for election technology development and for pilot 
programs to test election technology.--ELIMINATE THIS FUNCTION
    * Manage funds targeted to certain programs designed to encourage 
youth participation in elections.--HAND OVER TO FEC
    * Develop a national program for the testing, certification, and 
decertification of voting systems.--HAND OVER TO NIST & STANDARDS BOARD
    * Maintain the national mail voter registration form that was 
developed in accordance with the National Voter Registration Act of 
1993 (NVRA), report to Congress every two years on the impact of the 
NVRA on the administration of federal elections, and provide 
information to States on their responsibilities under that law.--HAND 
OVER TO FEC
    * Audit persons who received federal funds authorized by HAVA from 
the General Services Administration or the Election Assistance 
Commission.--HAND OVER TO GAO
    * Submit an annual report to Congress describing EAC activities for 
previous fiscal year.--HAND OVER AS APPROPRIATE TO ENTITIES PICKING UP 
FUNCTIONS AS DESCRIBED ABOVE

    References:
          Request by Voters: Alternate legislative recommendation 
        http://www.wethepatriots.org/HAVA/requestbyvoters.pdf
          Concept proposal for federal election reform legislation 
        http://electionarchive.org/ucvInfo/US/EI-FedLegProposal-v2.pdf
          Nancy Tobi podcast interview with Bob Fitrakis of Ohio's 
        FreePress.org: (Audio podcast: Why mandated equipment in Holt 
        does not exist and will not exist in time for their mandated 
        2008 timeline and what this means to the nation) http://
        www.democracyfornewhampshire.com/node/view/3661
          Why the Election Assistance Commission must be abolished: 
        Centralized executive power and bloodless coups http://
        www.democracyfornewhampshire.com/node/view/3657
          What's wrong with the NEW Holt Bill (HR 811)? (13 bulleted 
        points) 
        http://www.democracyfornewhampshire.com/node/view/3572
          National Association of Counties and National Conference of 
        State Legislatures urge Congress to oppose federal election 
        reform (why state and local election officials and legislators 
        oppose the bill) http://www.democracyfornewhampshire.com/node/
        view/3687
          NASS Approach to Federal Legislation (why top state election 
        officials oppose Holt) http://www.democracyfornewhampshire.com/
        node/view/3687

        [GRAPHIC] [TIFF OMITTED] T6023A.061
        
        [GRAPHIC] [TIFF OMITTED] T6023A.062
        
        [GRAPHIC] [TIFF OMITTED] T6023A.063
        
        [GRAPHIC] [TIFF OMITTED] T6023A.064
        
        [GRAPHIC] [TIFF OMITTED] T6023A.065
        
        [GRAPHIC] [TIFF OMITTED] T6023A.066
        
        [GRAPHIC] [TIFF OMITTED] T6023A.067
        
        [GRAPHIC] [TIFF OMITTED] T6023A.068
        
        [GRAPHIC] [TIFF OMITTED] T6023A.069
        
        [GRAPHIC] [TIFF OMITTED] T6023A.070
        
        [GRAPHIC] [TIFF OMITTED] T6023A.071
        
        [GRAPHIC] [TIFF OMITTED] T6023A.072
        
        [GRAPHIC] [TIFF OMITTED] T6023A.073
        
        [GRAPHIC] [TIFF OMITTED] T6023A.074
        
        [GRAPHIC] [TIFF OMITTED] T6023A.075
        
        [GRAPHIC] [TIFF OMITTED] T6023A.076
        
        [GRAPHIC] [TIFF OMITTED] T6023A.077
        
        [GRAPHIC] [TIFF OMITTED] T6023A.078
        
        [GRAPHIC] [TIFF OMITTED] T6023A.079
        
        [GRAPHIC] [TIFF OMITTED] T6023A.080
        
        [GRAPHIC] [TIFF OMITTED] T6023A.081
        
        [GRAPHIC] [TIFF OMITTED] T6023A.082
        
        [GRAPHIC] [TIFF OMITTED] T6023A.083
        
        [GRAPHIC] [TIFF OMITTED] T6023A.084
        
        [GRAPHIC] [TIFF OMITTED] T6023A.085
        
        [GRAPHIC] [TIFF OMITTED] T6023A.086
        
        [GRAPHIC] [TIFF OMITTED] T6023A.087
        
        [GRAPHIC] [TIFF OMITTED] T6023A.088
        
        [GRAPHIC] [TIFF OMITTED] T6023A.089
        
        [GRAPHIC] [TIFF OMITTED] T6023A.090
        
        [GRAPHIC] [TIFF OMITTED] T6023A.091
        

</pre></body></html>
